Audit Report




OIG-09-029
Audit of the Office of D.C. Pensions’ Fiscal Years 2008 and
2007 Financial Statements

January 12, 2009




Office of
Inspector General
Department of the Treasury
The Treasury Department is committed to making its Web Site accessible to all
      citizens and ensuring that it meets or exceeds the requirements of
                       Section 508 of the Rehabilitation Act.




However, the Office of D.C. Pensions’ Fiscal Year 2008 Annual Report does not
   conform to the requirements of Section 508 of the Rehabilitation Act;


              The D.C. Pensions Annual Report is also located at:

    http://www.ustreas.gov/offices/management/dc-pensions/annual-report/


If you have any section 508 issues with the Annual Report, please complete a
Section 508 feedback form and someone will contact you.
                                       DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              January 12, 2009


            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                  Michael Fitzgerald /s/
                                   Director, Financial Audits

            SUBJECT:               Audit of the Office of D.C. Pensions’ Fiscal Years 2008 and
                                   2007 Financial Statements


            I am pleased to transmit the attached audited Office of D.C. Pensions (ODCP)
            financial statements for fiscal years 2008 and 2007. Under a contract monitored
            by the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the financial statements of ODCP as of
            September 30, 2008 and 2007 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements;
            and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were presented fairly, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control over financial reporting that are
                    considered material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit in accordance with generally accepted government auditing
            standards, was not intended to enable us to express, and we do not express, an
            opinion on the financial statements or conclusions about the effectiveness of
            internal control or compliance with laws and regulations. KPMG LLP is responsible
Page 2


for the attached auditors’ reports dated December 4, 2008 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
                      Department of the Treasury
                         Office of D.C. Pensions




District of Columbia Pensions Program
Fiscal Year 2008 Annual Report
MESSAGE FROM THE DIRECTOR
December 2008

       n behalf of the Office of D.C. Pensions, I am pleased to 


O      present the Fiscal Year (FY) 2008 Annual Report, which 

       provides highlights of the significant milestones 

achieved by the program during the year and a summary of our 

future focus areas. 


Pursuant to the Balanced Budget Act of 1997, as amended, the
Office of D.C. Pensions is responsible for carrying out the
Secretary of the Treasury's responsibility to fund and
administer the District of Columbia Judges' Retirement Plan
and the federal portion of the District of Columbia Teachers’, and Police Officers’
and Firefighters’ Retirement Plans. As of September 30, 2008, the District of
Columbia Judicial Retirement and Survivors Annuity Fund, and the District of
Columbia Federal Pension Fund held assets totaling $3.8 billion. During FY 2008,
the Office of D.C. Pensions paid $506 million in federal benefits to more than
13,500 annuitants and refunds of employee contributions to more than 350 former
active employees.

The Office of D.C. Pensions achieved a significant milestone with the completion of the
core functionality in the automated pension/payroll system, the System to Administer
Retirement (STAR). In addition to issuing timely and accurate payments, STAR is now
able to identify the Federal and District Government’s share of the annuitant payments.
For the first time in program history, the District of Columbia Retirement Board was able
to reimburse the Office of D.C. Pensions for the District’s share of the annuitant payments
based on the STAR calculation.

During the fiscal year, the Office of D.C. Pensions also focused on annuitant
communications. Annuitants received enhanced earning statements and more clearly
printed 1099-R tax forms. The Office of D.C. Pensions produced an updated version of
the Summary Plan Description for the District of Columbia Judges’ Retirement Plan and
assisted the District of Columbia Retirement Board with updates to the Summary Plan
Description for the District of Columbia Teachers’ Retirement Plan.

For the 10th consecutive year KPMG LLP, an independent public accounting firm,
rendered an unqualified opinion on the FY 2008 financial statements of the Office of
D.C. Pensions. In addition, KPMG did not note any matters involving internal controls
that it considered material or any instances of noncompliance with laws and regulations.
The Office of D.C. Pensions will continue to work cooperatively with the District of
Columbia Retirement Board, Bureau of the Public Debt, and other Department of the
Treasury and District entities to provide quality service to the annuitants and to carry out
the Department of the Treasury’s responsibilities under the Act.




                                                            Nancy A. Ostrowski, Director
                                                            Office of D.C. Pensions
                                                            Department of the Treasury
                              TABLE OF CONTENTS 



PART 1        MANAGEMENT’S DISCUSSION AND ANALYSIS                         PAGE

  I.     Introduction                                                       1

  II.    Executive Summary                                                  3

  III.   Strategic Goals/Objectives                                          4

  IV.    Five-Year History of the District of Columbia Pensions Program     30 

  V.     Limitation of the Financial Statements                             34 


PART 2        INDEPENDENT AUDITORS’ REPORTS

         Independent Auditors’ Report                                       37 

         Independent Auditors’ Report on Internal Control Over Financial
              Reporting                                                     39     

         Independent Auditors’ Report on Compliance and Other Matters       41 


PART 3        FINANCIAL STATEMENTS AND NOTES

         Consolidated Balance Sheets                                        45 

         Consolidated Statements of Net Cost                                46 

         Consolidated Statements of Changes in Net Position                 47 

         Combined Statements of Budgetary Resources                         48 

         Notes to Financial Statements                                      49 


PART 4        SUPPLEMENTARY SCHEDULES

         Consolidating Balance Sheets                                       63 

         Consolidating Statements of Net Cost                               64 

         Consolidating Statements of Changes in Net Position                65 

         Combining Statements of Budgetary Resources                        66 

         Consolidating Intra-governmental Balances                          67 

         Investments in GAS Securities – Net By Fund                        68 

         Investments in Nonmarketable Market-Based GAS Securities –
              Net By Fund and Maturity                                      69 

         Administrative Expenses – By Fund                                  70 

         Pension Expense – By Fund                                          71 

         Reconciliation of Net Cost of Operations to Budget                 72 

(This page left intentionally blank.)
                 PART 1 

MANAGEMENT’S DISCUSSION
          AND ANALYSIS
         MANAGEMENT'S DISCUSSION AND ANALYSIS 

                  FISCAL YEAR 2008

      Vision:
      The vision of the Office of D.C. Pensions is successful stewardship of the pensions funds, high
      quality benefits administration services and effective use of program resources while fostering
      mutually beneficial relationships with our business partners at the District of Columbia, the
      Bureau of the Public Debt and other Treasury entities.

      Mission:
      The mission of the Office of D.C. Pensions is to implement the Secretary's responsibilities under
      Title XI of the Balanced Budget Act of 1997, Pub. L. 105-33 (111 Stat. 251, 712), as amended.
      The responsibilities are to make timely and accurate benefit payments associated with the District
      of Columbia retirement programs for police officers and firefighters, teachers and judges by
      managing investments, providing oversight and program management, and ensuring funding is
      available for future payments.



I.   Introduction

     A. Statutory Basis and Responsibilities
     Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act),
     the Secretary of the Treasury (the Secretary) assumed certain responsibilities for a
     specific population of annuitants under the following District of Columbia (District)
     retirement plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’
     Retirement Plan and the Judges’ Retirement Plan. Specifically, the Secretary is
     responsible for administering the retirement benefits earned by District teachers, police
     officers and firefighters based upon service accrued prior to July 1, 1997, and retirement
     benefits earned by District judges, regardless of when service accrued.

     The Secretary’s responsibilities include: (1) making accurate and timely benefit
     payments; (2) investing fund assets; and (3) funding pension benefits. To carry out these
     responsibilities, the Department of the Treasury’s (Treasury) Office of D.C. Pensions
     (the Office) engages in a wide range of legal, policy and operational activities in the areas
     of benefits administration, information technology, financial management and
     administration. The Office coordinates with many District entities and stakeholders to
     administer its responsibilities.

     All benefit payments that are the responsibility of the Treasury under the District
     retirement programs are referred to herein as Federal Benefit Payments. All benefit
     payments to which an individual is entitled under the District of Columbia Replacement
     Plan (pertaining to police officers, firefighters and teachers based upon service accrued
     after June 30, 1997) are referred to as District Benefit Payments.




                                                     1

B. Organizational Structure and Staffing
The Office reports to the Deputy Assistant Secretary for Human Resources and Chief
Human Capital Officer (DASHR). The DASHR reports to the Assistant Secretary for
Management and Chief Financial Officer (ASM/CFO). ASM/CFO reports through the
Deputy Secretary to the Secretary of the Treasury.

The Office structure consists of three key functional areas: benefits and systems
administration, finance and resource administration, and program management.
	 Benefits and Systems Administration: The Office provides oversight of the benefit
   administration functions for certain District of Columbia retirement plans. The Office
   also operates and maintains the System to Administer Retirement (STAR), an
   automated pension/payroll system, in support of benefits administration. Annually,
   more than $550 million in benefit payments are made for more than 13,500
   annuitants.
	 Finance and Resource Administration: The Office is responsible for financial and
   administrative activities related to the benefit administration functions it oversees.
   The Office manages and accounts for net investments in Government Account Series
   (GAS) securities in the federal pension funds totaling approximately $3.8 billion as of
   September 30, 2008. The Office also performs an annual actuarial valuation to
   determine the pension liability of the retirement programs and the annual contribution
   from the Treasury General Fund into the federal pension funds.
	 Program Management: The Office provides oversight of its responsibilities through
   special project management and a quality assurance program which ensures internal
   program areas and Treasury/District business partners meet quality standards.

In addition, the Office funds and receives support from other Treasury offices, the Office
of General Counsel and the Procurement Services Division. As of September 30, 2008,
20 Treasury positions are funded from the District of Columbia Teachers, Police Officers
and Firefighters Federal Pension Fund (D.C. Federal Pensions Fund) and the District of
Columbia Judicial Retirement and Survivors Annuity Fund (Judicial Retirement Fund).

Pursuant to a reimbursable services agreement, Treasury’s Bureau of the Public Debt
(BPD), Administrative Resource Center (ARC), performs: systems administration and
hosting for the automated pension/payroll system, accounting, and annuity payroll
services.

Since September 26, 2005, the District of Columbia Retirement Board (DCRB) serves as
the interim benefits administrator for the Police Officers’ and Firefighters’, and Teachers’
Retirement Plans. The Office reimburses DCRB for expenses associated with
administrating the Federal Benefit Payments. Also, as of that date, the Office assumed
benefit administration responsibility for the Judges’ Retirement Plan.




                                         2

II.   Executive Summary

      During Fiscal Year (FY) 2008, the Office of D.C. Pensions (the Office) successfully
      worked with the District of Columbia Retirement Board (DCRB), Treasury’s Bureau of
      the Public Debt (BPD), and other Treasury entities to carry out its responsibilities under
      the provisions in Title XI of the Balanced Budget Act of 1997, as amended.

      The Office achieved a significant milestone with the completion of the core functionality
      for the System to Administer Retirement (STAR). The implementation of STAR
      Release 5 was completed in November 2007 with support from the DCRB and BPD.
      STAR is now able to identify the Federal and District Government portions of all future
      annuity payments. In January 2008, the DCRB reimbursed the Office for District
      Benefit Payments based on the STAR calculation of the actual monthly District liability
      for the first time.

      With that significant milestone met, the Office staff turned their attention to transitioning
      from an office supporting a major system development to one that focuses on operational
      oversight. The re-structuring of the organization positions the Office to address future
      challenges. In the new organization, service areas were created to more clearly identify
      operational responsibilities and single points-of-contact to enhance communication with
      our business partners. With the transition away from major system development, the IT
      Hosting Team at BPD now has full responsibility for STAR development, operations and
      maintenance.

      The Office also focused on annuitant communications during FY 2008. With support
      from the Payroll Team at BPD’s Administrative Resources Center (ARC),
      communication to annuitants was improved with the distribution of enhanced earning
      statements and more clearly printed 1099-R tax forms. The Office produced an updated
      version of the Summary Plan Description (SPD) for the District of Columbia Judges’
      Retirement Plan and assisted DCRB with the preparation of an updated version of the
      SPD for the District of Columbia Teachers’ Retirement Plan.

      In FY 2008, the Office provided successful stewardship of the pension funds and
      effective use of resources. For the 10th consecutive year the Office received an
      unqualified audit opinion with the support from the Accounting Team at ARC.

      In FY 2009, the Office plans to develop a long-term strategic plan, continue to expand its
      oversight and quality assurance program related to benefits administration, complete a
      review of future STAR architectural requirements, and continue to communicate
      organizational changes to business partners while enhancing the new organizational
      areas. This report provides more detail about both the FY 2009 future focus areas and the
      FY 2008 program results.




                                                3

III. Strategic Goals/Objectives

    A. Strategic Objectives and Performance Measures
    The Office of D.C. Pensions (the Office) has four Strategic Objectives that contribute to
    the achievement of two of the Department of the Treasury’s (Treasury) Strategic Goals.

    Treasury Strategic Goal: Effectively Managed U.S. Government Finances

    Office Strategic Objectives:
    1.	 Benefit payments are accurate and timely; and the use of secure electronic systems
        are optimized
    2.	 Pension Funds in the custody of the Treasury are effectively managed and invested

    Treasury Strategic Goal: Management and Organizational Excellence

    Office Strategic Objective:
    1.	 Organization’s mission is effectively managed
    2.	 Annuitants received quality service

    The following table displays four Office’s Strategic Objectives with a link to the two
    Treasury Strategic Goals. It also identifies the Office’s Performance Measures and
    Results.




                                             4

A. Office of D.C. Pensions (Office) Strategic Objectives and Performance Measures

Fiscal Years 2008 - 2010                                                                                                   Fiscal Year 2008
Treasury                   Treasury                   Office                   Office                       Office
Strategic Goals            Strategic Objectives       Strategic Objectives     Performance Measure          Results
Effectively Managed U.S.   Cash resources are         Benefit payments are     Percentage of monthly        STAR made 100% of the benefits payments to
Government Finances        available to operate the   accurate and timely;     benefit payments made        annuitants on time. Treasury ensured timely
                           government                 and the use of secure    to annuitants by the first   availability of funding for $506 million in
                                                      electronic systems are   business day of the          benefit payments to 13,578 annuitants and
                                                      optimized                month                        refunded contributions to 363 former active
                                                                                                            employees in FY 2008.

                                                                               Percentage of electronic The Office pays 94.0% of its annuitants by
                                                                               payments made to         direct deposit, a 1.6% increase over FY 2007.
                                                                               annuitants

                                                                               New annuitant benefit        The District’s calculation error rate identified
                                                                               calculation error rate       in the quality review process decreased to
                                                                                                            2.00% in FY 2008 from 3.36% in FY 2007.

                                                                               Secure electronic            Throughout FY 2008, STAR continued to
                                                                               pension/payroll system       provide accurate, secure and timely processing
                                                                               effectiveness                for 75 annuitants under the Judges’ Plan and
                                                                                                            13,503 annuitants under the plans for teachers,
                                                                                                            police and firefighters. The STAR Release 5
                                                                                                            project was completed, fully implementing the
                                                                                                            split benefit capability.

                                                                               Percentage of time,   STAR was available 99.99% of the time.
                                                                               excluding scheduled
                                                                               maintenance, STAR was
                                                                               available to users




                                                                       5
                                                                           

Fiscal Years 2008 - 2010                                                                                         Fiscal Year 2008
Treasury                   Treasury               Office                 Office                    Office
Strategic Goals            Strategic Objectives   Strategic Objectives   Performance Measure       Results
Effectively Managed        Cash resources are     Pension Funds in the   Financial Statement       KPMG LLP, an independent public
U.S. Government            available to operate   custody of the         Audit Opinion             accounting firm, rendered an unqualified
Finances (continued)       the government         Treasury are           received from an          opinion on the Office’s Financial Statements.
                           (continued)            effectively managed    independent external
                                                  and invested           auditor

                                                                         Number of open            KPMG LLP noted no material weakness in
                                                                         financial management      the Office’s internal control over financial
                                                                         material weaknesses or    reporting. In additional, no corrective actions
                                                                         corrective actions        were noted by the Office during its OMB
                                                                                                   Circular A-123, Appendix A review of
                                                                                                   internal control over financial reporting.

                                                                         Accuracy and              The enrolled actuary, Ed Friend, Inc., issued a
                                                                         timeliness of actuarial   report as of October 1, 2008, providing all
                                                                         report                    information necessary to meet the
                                                                                                   requirements of the Balanced Budget Act
                                                                                                   of 1997, as amended. The actuarial report
                                                                                                   also included the amount of the deposits to be
                                                                                                   made to the D.C. Federal Pension Fund and
                                                                                                   Judicial Retirement Fund.

                                                                         Percentage of             Of the 157 payments made during FY 2008,
                                                                         electronic vendor and     99% were paid using electronic fund transfers
                                                                         travel payments made      within 30 days of receipt.
                                                                         timely

                                                                         Amount saved by           The Office saved $30,142.54 in FY 2008 by
                                                                         utilizing early payment   meeting the early payment discount
                                                                         discount incentives       incentives.




                                                                 6

Fiscal Years 2008 - 2010                                                                                                Fiscal Year 2008
Treasury                   Treasury                   Office                 Office                     Office
Strategic Goals            Strategic Objectives       Strategic Objectives   Performance Measure        Results
Effectively Managed U.S.   Cash resources are         Pension Funds in the   Accuracy and timeliness    The Office submitted financial information
Government Finances        available to operate the   custody of the         of internal financial      timely to all required entities, closing its books
(continued)                government                 Treasury are           reports                    within three business days each month. The
                           (continued)                effectively managed                               Office’s financial approach integrates financial
                                                      and invested                                      information with its resource planning
                                                      (continued)                                       requirements and uses detailed expense reports
                                                                                                        to manage operations.

                                                                             Rate of return on          In FY 2008, the rate of return as a percentage
                                                                             investments                of par-valued investments was 4.2% for the
                                                                                                        D.C. Federal Pension Fund and 5.1% for the
                                                                                                        Judicial Retirement Fund.

                                                                             Minimum of two months In accordance with its investment guidelines,
                                                                             of available cash and the Office maintained adequate cash balances
                                                                             securities            to meet monthly obligations.

                                                                             Amount replenished to      The D.C. Federal Pension Fund received
                                                                             the D.C. Federal Pension   $989,576 through debt prevention efforts and
                                                                             and Judicial Retirement    received $112,451 through debt collection
                                                                             Fund                       efforts which totaled $1.1 million.

                                                                             Progress toward ending     The Office established a Reconciliation Project
                                                                             the Interim Benefits       Team and began planning for reconciliation
                                                                             Period and planning for    activities. The Team completed a review of
                                                                             the final reconciliation   current legislation and Memorandums of
                                                                                                        Understanding that govern reconciliation
                                                                                                        requirements.




                                                                     7

Fiscal Years 2008 - 2010                                                                                              Fiscal Year 2008
Treasury                   Treasury                Office                   Office                      Office
Strategic Goals            Strategic Objectives    Strategic Objectives     Performance Measure         Results
Management and             Enabled and effective   Organization’s mission   Percentage of Office        100% of Office employees have a current
Organizational             Treasury Department     is effectively managed   employee performance        performance plan and Individual Development
Excellence                                                                  and training plans          Plan (IDP) which is consistent with Office and
                                                                            supporting individual       individual goals.
                                                                            employee and Office
                                                                            goals

                                                                            Percentage of Office        100% of the Office employees received
                                                                            employees receiving         quarterly reviews and year end performance
                                                                            timely performance          ratings.
                                                                            reviews and feedback

                                                                            Alignment of Office         The Office transitioned from supporting system
                                                                            structure to effectively    development to a steady state operational
                                                                            accomplish mission          oversight organization. The Office underwent
                                                                                                        a re-organization to align responsibilities
                                                                                                        within service areas and established single
                                                                                                        points-of-contact with business partners.

                                                   Annuitants received      Percentage of surveyed      A sample of annuitants was surveyed regarding
                                                   quality service          annuitants who indicated    the patience, professionalism, knowledge,
                                                                            satisfaction with the       responsiveness and courteousness of the
                                                                            accuracy, timeliness, and   individual who provided assistance. Responses
                                                                            professionalism of          indicated that the services provided were
                                                                            service received            excellent.

                                                                            Quality and timeliness of The Office updated the Judges’ Summary Plan
                                                                            retirement plan           Description (SPD) during FY 2008. In
                                                                            information               addition, the Office supported DCRB in
                                                                                                      updating the Teachers’ SPD. The SPDs provide
                                                                                                      current, accurate and easy to understand
                                                                                                      information about the Retirement Plans.


                                                                   8

B. Benefit payments are accurate and timely; and the use of secure
   electronic systems are optimized

1. Program Results
   a. Benefits Administration
   General Operations

   Benefits administration services were provided to 13,578 annuitants, as of 

   September 30, 2008, in three District of Columbia retirement plans: the Police Officers’ 

   and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan, and the Judges’ 

   Retirement Plan. The annuitant population within each plan is as follows: 

   teachers, 5,896; police officers and firefighters, 7,607; and judges, 75. 


                                    Judges 0.6%




                                                         Teachers 43.4%
              Police/Fire 56.0%




   In FY 2008, the average monthly payroll totaled approximately $46 million. During the
   year, all payment files were submitted on time ensuring timely payment of annuitant
   benefits by the first business day of the month. With oversight and support by the Office
   of D.C. Pensions (the Office), the District of Columbia’s Retirement Board (DCRB)
   performed benefits administration services for the Police Officers’ and Firefighters’
   Retirement Plan and the Teachers’ Retirement Plan, while the Office performed benefits
   administration for the Judges’ Retirement Plan.

   General operations focus largely on transaction processing and customer service
   activities. On a monthly basis, the transaction processing activities represent a variety of
   activities from processing new retirements and/or survivor benefits, to terminating those
   no longer eligible, and to updating annuitants’ personal and benefits information.

   In FY 2008, the average monthly processing in key areas included:

     New Retirements – 24 per month               New Survivors – 8 per month
     New Beneficiaries/Estates – 16 per           Qualified Domestic Relations
      month                                         Orders – less than 1 per month
     Purchases of Service – 4 per month           Refunds – 30 per month
     Direct Deposit Changes – 46 per month        Tax Changes – 164 per month



                                           9

Equally important to transaction processing is customer service. The DCRB customer
service team performed a wide range of activities, including resolving annuitant inquiries.

In FY 2008, the average monthly support from the customer service team included:

   Answering Calls – 1,402 per month
   Servicing Walk-ins – 67 per month

The Office encourages annuitants to receive benefits through direct deposit. Direct
deposit is a more convenient, secure and timely method of delivering benefits. During
FY 2008, the Office initiated a project to promote the use of Electronic Fund Transfers
(EFT) among benefit payment recipients. Personalized letters promoting the use of EFT
were mailed to annuitants who received paper checks. In FY2008, there was a 1.6%
increase in EFT participation. Of that increase, a 1.2% increase can be attributed to the
EFT promotion.

By the end of FY 2008, 93.3% of retired police officers and firefighters or their survivors,
94.9% of retired teachers or their survivors, and 98.7% of retired judges or their survivors
received their monthly benefit payments by direct deposit.

                    Percentage of Direct Deposit by Fiscal Year
                   Annuitants             2008             2007
                   Police/Fire           93.3%            91.3%
                    Teachers             94.9%            93.6%
                     Judges              98.7%            97.3%

In FY 2008, a variety of outreach efforts provided accurate and timely information to
annuitants, including:

   Letters notifying annuitants when their benefits changed
   Earning statement messages alerting annuitants to changes (such as a cost-of-living
    adjustment) or opportunities (e.g., signing up for direct deposit)
   DCRB newsletter (which provides important plan information for active and retired
    police officers, firefighters and teachers)
   Special correspondence (which provide annuitants with additional information about
    the plans such as EFT enrollments)

Treasury's Bureau of the Public Debt (BPD), Administrative Resources Center (ARC)
also supports benefits administration. ARC staff members are responsible for making
benefit payments, third party reporting, debt management, and mailing services.
In FY 2008, the ARC staff made 162,627 benefit payments totaling more than
$552.3 million for a monthly average of nearly $46.0 million. In addition, ARC staff
recovered or collected approximately $1.1 million in debt through reclaimed
overpayments and debt collections.




                                      10

Special Projects

End User Training

In FY 2008, the Office transitioned the responsibility for STAR training development and
delivery to its Benefits Administration team. The Benefits Administration team
successfully assumed the responsibility for developing, delivering and maintaining the
STAR training program and related support tools. During FY 2008, the Office
successfully developed additional training materials and trained new benefit
administration staff.

Scanning Retirement Benefit Records

The DCRB is in the process of implementing a document imaging and workflow
management system for retirement benefit records with support from the Office. The
project involves scanning 2.8 million images for retirement records dating over many
decades. During FY 2008, DCRB scanned approximately 62% of the images and expects
to scan the remaining documents in FY 2009. The scanning project will enable more
reliable preservation of retirement records and provide immediate access of retirement
records at the user’s desktop.

b. System to Administer Retirement (STAR)

General Overview

STAR is the automated pension/payroll system developed by the Office, in cooperation
with the District, to replace the District’s legacy system. STAR supports the end-to-end
business processes for retirement, streamlines the administration and payment of pension
benefits to annuitants, and enhances customer service. STAR enables pension analysts to
quickly access information and provide annuitants with real-time customer service.

STAR is based on Oracle/PeopleSoft’s off-the-shelf software for human resources,
pensions, and payroll administration. The STAR implementation has been phased and
deployed in bundles known as releases. Release 5 (the final release necessary to
complete the development of the core system functionality in STAR) was implemented in
November 2007.

Prior year releases include:

   Release 1 of STAR was implemented in December 2002 to serve all annuitants of the
    Judges’ Retirement Plan.
   Release 2 of STAR was implemented in September 2003 to serve teachers, police
    officers and firefighters who retired on or before June 30, 1997, and their survivors.
   Release 3 of STAR, which supported annuitants who retired on or after July 1, 1997,
    including newly retired teachers, police officers and firefighter retirees, and their
    subsequent survivors, was deployed in August 2005.



                                      11

   Release 4 of STAR started the implementation of the split benefit calculation to
    enable STAR to calculate the federal and District share (split) for benefit payments.
    Release 4 was implemented in June 2007 to calculate the split for future payments to
    those annuitants who were brought into pay status on or after June 4, 2007. New split
    monthly reports identify at the annuitant level the federal and District portions of the
    total annuity paid each month. This release also included an upgrade of
    Oracle/PeopleSoft from 8.0 to 8.9.

STAR Release 5 – Implemented in November 2007

Release 5 of STAR completed the implementation of the split benefit calculation. The
Split Benefit project involved three phases of work. Each of these Phases targets a
distinct group of annuitants for whom split functionality needed to be applied.

In FY 2007, Phase 1 was deployed as an integral part of STAR Release 4. It enabled
STAR to calculate the split benefits for annuitants brought into pay status beginning in
June 2007. Work in FY 2008 focused on Phases 2 and 3. Phase 2 of the Split Benefit
project calculated the split for future benefit payments to annuitants whose initial
retirement processing took place in STAR between August 2005 and June 2007. Phase 3
calculated the split for the future benefit payments to annuitants who retired after
June 30, 1997, and whose initial retirement processing took place in the District’s legacy
system, PAPS or Pension Administration and Payroll System. These annuitants were
converted into STAR in August 2005. The difference between Phase 2 and 3 is that all
the relevant data to calculate the split for the Phase 2 population was already recorded in
STAR whereas an analysis of historical data was needed to determine the split for the
Phase 3 population. The Office implemented both Phases 2 and 3 in November 2007 as
part of the Release 5 deployment.

STAR Transition

With the implementation of the final STAR release, the Office focused on the transfer of
knowledge from the system integrator and other contract partners to staff supporting
system and benefit administration activities. The STAR Transition addressed key
organizational areas including: STAR technical operations, maintenance, and
development; STAR infrastructure configuration and maintenance; STAR training
development, maintenance and delivery; and project management tool assessments.

STAR Technical Production Support and Hosting

Technical production support and hosting for STAR is performed by BPD. Since
September 2003, BPD staff members have led production support activities, including:
routine system operations, application and database administration, help desk operations
and problem resolution. In FY 2008, STAR was available to the user population 99.99%
of the time.




                                       12

STAR Systems Security

In FY 2007, the STAR system renewed its security certification and accreditation (C&A)
in compliance with the Federal requirement for completing updates at least every three
years. A full security C&A was first received in January 2003 and completely updated in
August 2004 when the Office made a major change to the technical environment. The
certification is the comprehensive and continual testing and evaluation of the
management, operational, and technical controls of an IT system. The accreditation is the
official management authorization to operate an IT system and to explicitly accept the
risk to agency operations, agency assets, or individuals based on the implementation of
security controls. To maintain the C&A, a Security Test and Evaluation (ST&E) was
conducted in late FY 2008. The Office will review the results and will address any
potential security vulnerabilities identified in the final ST&E report.

STAR Business Continuity Plan

Each year, the Office conducts a test of the STAR Business Continuity Plan. The test is
designed to assess the viability of the plan and the readiness of the system and the staff to
respond to an emergency. In May 2008, a test was successfully executed to verify the
accuracy and availability of the contingency systems. During the test, DCRB users were
able to successfully access the contingency systems to perform their normal operations,
including processing of new retirement cases.

In August 2008, an additional test was conducted to verify the availability and readiness
of the production systems from the contingency operations location. During the test,
ARC users were able to successfully access production systems from their contingency
operations location to process the month-end payroll.

Change Control Board

The Office established the STAR Change Control Board (CCB) in FY 2002 as the
approving authority for all system changes. The CCB evaluates the costs, benefits, and
risks associated with any proposed change. The Board establishes the priority order of
work relating to approved changes. The CCB process enhances internal controls and
accountability for new proposed changes. Changes are categorized as either a Change
Request or as a Configuration Item Change Request.

A Change Request (CR) generally addresses a major project such as a new release or an
upgrade, or a significant change in direction or activity, such as adding a new line of
business to STAR. CRs are reviewed by an Advisory Committee and must be approved
by the STAR Change Control Board. During FY 2008, four CRs were completed by the
Office. Three of the CRs were submitted and approved during FY 2007, while the fourth
one, which replaced the underlying software for STARBASE, a web-based electronic
document system, from contractor-to vendor-supported software, was submitted and
approved during FY 2008. A fifth CR was submitted during FY 2008 but, after careful
consideration, was not approved. There were no open CRs at the end of the fiscal year.



                                       13

   A Configuration Item Change Request (CICR) will typically address a change with a
   lesser impact to the system. There were 18 CICRs approved during the fiscal year to
   enhance or correct system functionality. Sixteen of them were completed and closed.
   Two of them are still in progress and remained open at the end of the fiscal year.

2. Future Focus

   a. Benefit Administration

   Increased Operational Focus

   With the completion of the core STAR functionality during FY 2008, the Office
   restructured its organization to more effectively support its operational oversight
   responsibilities. In FY 2009, the Office plans to focus on monitoring the stability of
   operational areas and on implementing process and system improvements.

   Scanning Retirement Benefit Records

   The Office will continue to support DCRB’s effort to scan retirement benefit records.
   During FY 2009, the scanning project will focus on the preservation of additional
   retirement records and providing immediate access of retirement records at the user’s
   desktop. The project is expected to be completed during the second quarter of
   FY 2009.

   b. System to Administer Retirement (STAR)

   Long-Term Architectural Planning

   The last STAR application upgrade occurred in June 2007, during the implementation of
   Release 4. In FY 2009, the Office plans to complete a review of future STAR
   architectural requirements to better position the organization for the next upgrade cycle.
   The results of the review will be used to develop an infrastructure upgrade plan to
   support the next STAR application upgrade, which is targeted for FY 2012.

   Technical Support Program Review

   In FY 2008, the Office transitioned full responsibility of STAR operations/maintenance
   and development to BPD. In FY 2009, the Office plans to conduct a comprehensive
   review of these responsibilities to ensure established industry standards and service levels
   are met. The Office expects the results of this review to identify opportunities for process
   improvements and efficiencies. The results of the review will aid in forming the FY 2010
   annual Service Level Agreement.




                                         14

C. Pension Funds in the custody of the Treasury are effectively
   managed and invested

1. Program Results

   a. Pension Funds

   Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004,
   Pub. L. 108-489, the Office of D.C. Pensions (the Office) administers Federal Benefit
   Payments through two funds:

   	 The District of Columbia Teachers, Police Officers, and Firefighters Federal
      Pension Fund (D.C. Federal Pension Fund) makes Federal Benefit Payments and
      pays necessary administrative expenses for the Police Officers’ and Firefighters’, and
      Teachers’ Retirement Plans. The D.C. Federal Pension Fund is not a typical pension
      fund in that it does not receive employee and employer contributions. The sources of
      funding for the D.C. Federal Pension Fund are: payments from the District of
      Columbia Retirement Board (DCRB); an annual federal payment amortizing the
      unfunded liability assumed from the District and any additional liabilities; and
      interest earned on investments.

   	 The District of Columbia Judicial Retirement and Survivors Annuity Fund
      (Judicial Retirement Fund) accumulates funds to finance Federal Benefit Payments
      and necessary administrative expenses of the Judicial Retirement Plan. There are
      three funding sources for the Judicial Retirement Fund: employee contributions; an
      annual federal payment amortizing the unfunded liability assumed from the District
      and any additional liabilities; and interest earned on investments.

   b. Deposits

   Warrants

   As authorized by the Act, the D.C. Federal Pension Fund and the Judicial Retirement
   Fund receive annual payments from the Treasury General Fund to amortize the unfunded
   liabilities of the retirement programs assumed by the Federal Government over 30 years,
   the annual net experience gains or losses over 10 years, and any annual changes in
   actuarial liabilities over 20 years. The annual payment to the Judicial Retirement Fund
   also includes amounts necessary to fund the normal cost of the retirement program and
   fund covered administrative expenses for the year. In accordance with the Act, these
   deposits are made in September each year and are invested in non-marketable Treasury
   securities with maturities consistent with the expected payment dates of the pension
   liabilities. In FY 2008, $340.2 million was deposited into the D.C. Federal Pensions
   Fund and $6.98 million was deposited into the Judicial Retirement Fund. In FY 2007,
   $345.4 million was deposited into the D.C. Federal Pension Fund and $7.4 million into
   the Judicial Retirement Fund.



                                         15

Interest

In FY 2008, the Office received $178.3 million of interest ($145.5 million earned) in the
D.C. Federal Pension Fund and $6.7 million ($5.9 million earned) in the Judicial
Retirement Fund. The rate of return in FY 2008 for the Office’s pension funds was 4.2%
for the D.C. Federal Pension Fund and 5.1% for the Judicial Retirement Fund. In
FY 2007, the Office received $192.4 million of interest ($153.0 million earned) in the
D.C. Federal Pension Fund and $6.3 million ($6.2 million earned) in the Judicial
Retirement Fund. The rate of return in FY 2007 for the Office’s pension funds was 4.4%
for the D.C. Federal Pension Fund and 5.6% for the Judicial Retirement Fund. The rate
of return is calculated by dividing interest earned from Government Account Series
(GAS) securities by the average par value of Investments in GAS securities. Interest
earned from GAS securities includes the amortization of premiums and discounts.

Judges’ Employee Contributions

Active judges are required to contribute 3.5% of salary to the Judicial Retirement Fund to
pay for part of the cost of their retirement benefits. Active judges who elect a survivor
annuity contribute an additional 3.5% of salary. Active judges’ contributions to the
retirement fund in FY 2008 totaled approximately $597,000. Retired judges who elected
a survivor annuity are required to contribute 3.5% of retirement salary. In FY 2008,
retired judges contributed approximately $160,000 to the retirement fund. In FY 2007,
active judges’ contributions to the retirement fund totaled $577,000. Retired judges
contributed approximately $156,000 to the retirement fund in FY 2007.

Summary of Fund Deposits

The following provides deposits to the D.C. Federal Pension Fund and the Judicial
Retirement Fund for FY 2008 and FY 2007.

                  Fund Deposits by Fiscal Year (in millions)
              Fund               Type of Deposit       2008           2007
                                Warrants               $340.2         $345.4
   D.C. Federal Pension Fund Interest                  $178.3         $192.4
                                Contributions            $0.0           $0.0
                                Warrants                 $7.0           $7.4
    Judicial Retirement Fund    Interest                 $6.7           $6.3
                                Contributions            $0.6           $0.6
                                Warrants               $347.2         $352.8
              Total             Interest               $185.0         $198.7
                                Contributions            $0.6           $0.6




                                      16

c. Payments

Annuity Benefit Payments

Pension benefit payments issued by the Office totaled $545.1 million and $7.2 million
from the D.C. Federal Pension Fund and Judicial Retirement Fund, respectively, for
FY 2008. The Office issued $531.2 million and $7.2 million, respectively, for FY 2007.
DCRB then reimburses the D.C. Federal Pension Fund for benefit payments made by
Treasury on the District’s behalf. After the DCRB reimbursement, federal pension
benefit payments totaled $498.6 million from the D.C. Federal Pension Fund for FY 2008
and $496.5 million for FY 2007.

Refunds of Employee Contributions

DCRB processes refunds of contributions for active employees and requests payment
from Treasury for the federal portion. During FY 2008, approximately $0.6 million
represented contribution refunds to plan participants of the D.C. Federal Pension Fund.
For FY 2007, approximately $0.9 million represented contribution refunds to plan
participants of the D.C. Federal Pension Fund.

Administrative Expenses

The Office funds administrative expenses to support federal responsibilities for the
retirement programs under the Act from the D.C. Federal Pension Fund and the Judicial
Retirement Fund. When administrative expenses related to activities that benefit all of
the retirement programs occur, expenses are usually allocated 99% to the
D.C. Federal Pension Fund and 1% to the Judicial Retirement Fund. When expenses
benefit only one group or the other, or when a different allocation is clearly appropriate,
expenses are charged accordingly.

In FY 2008, administrative expenses were approximately $17.5 million for the
D.C. Federal Pension Fund and $0.9 million for the Judicial Retirement Fund, for a total
of $18.4 million. In FY 2007, administrative expenses were approximately $14.6 million
for the D.C. Federal Pension Fund and nearly $1.1 million for the Judicial Retirement
Fund, for a total of $15.7 million. Administrative expenses in FY 2008, as compared to
FY 2007, increased by $2.7 million primarily due to an increase in costs for contractual
services.

The major administrative expenses resulted from reimbursement of DCRB benefit
administration and support function expenses, the Office’s staff salaries and benefits, and
contractors engaged by the Office to provide IT systems support. Certain costs of the
System to Administer Retirement (STAR) pension/payroll system for hardware, software,
and system development were capitalized as equipment and internal use software. The
Office has been amortizing – since January 2003 in the Judicial Retirement Fund and




                                       17

since September 2003 in the D.C. Federal Pension Fund – direct costs incurred to develop
STAR. Capitalized costs in the D.C. Federal Pension Fund and Judicial Retirement Fund
will be amortized monthly on a five-year schedule.

               Administrative Expenses by Fiscal Year (in millions)
             Fund                   2008           2007             Difference
   D.C. Federal Pension Fund       $17.5           $14.6               $2.9
    Judicial Retirement Fund        $0.9            $1.1               ($0.2)
             Total                 $18.4           $15.7               $2.7

d. Collections

District Benefit Payments

Treasury initially funds all benefit payments under the Police Officers’ and Firefighters’
and Teachers’ Retirement Plans from the D.C. Federal Pension Fund. The District then
reimburses the D.C. Federal Pension Fund for benefit payments made by Treasury on
behalf of the District. Until July 1, 2007 the District only reimbursed the D.C. Federal
Pension Fund annually for estimated District Benefit Payments made by Treasury for the
prior year. On July 1, 2007, the DCRB began reimbursing Treasury approximately
$3.0 million monthly for estimated District Benefit Payments made by Treasury on the
District’s behalf. These monthly reimbursements totaled approximately $11.9 million for
FY 2007. On January 31, 2008, the DCRB reimbursed Treasury $23.8 million for the
remainder of payments made by Treasury on the District’s behalf in FY 2007. The
FY 2007 reimbursements for District Benefit Payments, which totaled $35.7 million,
were based on estimates provided in the DCRB actuarial valuation as of October 1, 2007.

In November and December 2007, the DCRB reimbursed Treasury $3.5 million monthly
for District Benefit Payments earned in the previous month. Each of the two monthly
reimbursements was one-twelfth of the estimated District liability for FY 2008, as
determined by the DCRB actuary. Beginning in January 2008, monthly DCRB
reimbursements for District Benefit Payments have been based on the STAR calculation
of the actual District liability. The STAR Split Reimbursement Summary Report
supports the District reimbursements made to Treasury each month. The FY 2008
reimbursements for District Benefit Payments totaled $47.1 million.

Refund Reconciliation Project

The First Amended Memorandum of Understanding (MOU), dated September 28, 2000,
required Treasury to pay the total amount of refunds of employee contributions during
the interim benefits period. On February 1, 2005, Treasury entered into a MOU with the
DCRB and the District of Columbia’s Office of Pay and Retirement Services (OPRS)
concerning refunds of employee contributions under the Police Officers’ and
Firefighters’, and Teachers’ Retirement Plans. Under this agreement, DCRB agreed to
fund refunds of employee contributions paid on and after February 1, 2005, in accordance


                                      18

with the respective statutory responsibilities (i.e., refunds of contributions deducted from
employee salary on or before June 30, 1997, are a federal liability and refunds of
contributions deducted after June 30, 1997, are a District liability).

In addition to agreeing to fund amounts paid on and after February 1, 2005, the District
agreed to reimburse Treasury for that portion of refunds paid by Treasury prior to
February 1, 2005, that represents contributions deducted and withheld from an
employee’s salary or deposits after June 30, 1997. In FY 2008, the District paid Treasury
$1.6 million for its share of the refunds paid in FY 2000. Nearly $17 million have been
collected for refunds paid in fiscal years 2005 through 2000. A receivable of $985,000
has been established for FY 1999, and a receivable of $200,000 for FY 1998-97. The
table below summarizes the Treasury and District share of the refunds.

                  Refund Reconciliation Project by Fiscal Year (in millions)
                     *
             2005      2004    2003       2002      2001      2000      1999**            1998-97**
 Treasury     $0.5       $1.8       $1.2       $2.7       $2.3       $2.9       $3.4          $5.6
 District     $1.4       $4.7       $3.2       $3.7       $2.3       $1.6       $1.0          $0.2
  Total       $1.9       $6.5       $4.4       $6.4       $4.6       $4.5       $4.4          $5.8
* Fiscal Year 2005 includes refunds paid from October 1, 2004, through February 15, 2005.
**Fiscal Years 1997 through 1999 are estimates that have been modified in Fiscal Year 2008.


Debt Collection

During FY 2008, the Office pursued debt prevention and collection efforts working with
Treasury’s Bureau of the Public Debt (BPD), Administrative Resource Center (ARC),
which manages the debt collection process for the Office. In FY 2008, debt prevention
efforts ensured that a total of $989,576 was immediately recovered upon timely
notification of an annuitant’s death or in cases of payment errors. Through debt
collection efforts $112,451 was collected through offsets, lump sum payments or
installment payments. In FY 2007, debt prevention efforts ensured that a total of
$857,665 was immediately recovered upon timely notification of an annuitant’s death or
in cases of payment errors. Through debt collection efforts $104,774 was collected
through offsets, lump sum payments or installment payments.

During FY 2008, the Office continued to review its debt management practices. The
Office, with significant support from ARC, entered into an agreement with the Financial
Management Service’s (FMS) to participate in its Cross-Servicing Program. This
program is used to further reduce debts owed to the retirement funds. In addition, ARC
participated in a three-day debt discussion with the Office, which focused on enhancing
debt collection practices and procedures. Later in the year, ARC led additional
discussions with DCRB to outline areas for improvements around debt prevention and
collection. Once these efforts are complete, the Office will publish updated debt
regulations specific to the retirement programs.




                                            19

e.   Benefit Administration Expense Reimbursements

The Office and the DCRB have developed a methodology for allocating costs incurred by
both entities in administering District and Federal Benefit Payments. The methodology
includes consideration of: (1) the number of active employees, 100% federal annuitants,
100% District annuitants, and split annuitants; (2) the estimated DCRB resources needed
to support these populations; and (3) the number of employees throughout DCRB who
are dedicated to supporting the benefits administration function. Applying this
methodology, the Office and the DCRB entered into a cost sharing agreement for
reimbursement of FY 2008 actual expenses. Pursuant to the agreement, the Office will
reimburse the DCRB approximately $3.0 million for FY 2008 expenses in administering
Federal Benefit Payments. DCRB in turn will reimburse the Office approximately
$1.1 million for the Office’s expenses in developing and operating STAR to administer
District Benefit Payments. In FY 2007, the Office reimbursed DCRB $2.4 million for
benefit administration expenses, while DCRB reimbursed the Office $2.0 million for
administrative expenses associated with the operation of STAR.

f. Investments

As required by the Act, amounts received in the D.C. Federal Pension Fund and the
Judicial Retirement Fund were invested in non-marketable securities issued to mirror the
characteristics of marketable securities. The Bureau of the Public Debt (BPD) invests the
assets of the pension funds based on investment guidance from the Office. The Office
follows a “ladder” approach, scheduling maturities in amounts sufficient to meet the
obligations to pay benefits and administrative expenses projected by annual actuarial
valuations. Investment policy in the pension funds strikes a balance between ensuring the
Office can meet short-term obligations and extending the ladder. In FY 2008, the cash
balance available for contingencies was targeted not to fall below $88 million, which is
approximately two months of obligations. The Office invested the cash balances in one-
day certificates, except for an un-invested balance of $250,000 at month end, to cover
unanticipated withdrawals on the last day of the month. In FY 2008, the Office extended
the maturity dates of securities in the D.C. Federal Pension Fund to May 2014, and for
securities in the Judicial Retirement Fund to February 2017.

Investments are valued at cost, adjusted for unamortized premiums and discounts, if
applicable. The premiums and discounts are recognized as adjustments to interest
income, utilizing the effective interest method. Net investments totaled $3.8 billion in
both FY 2008 and FY 2007.

                 Net Investments by Fiscal Year (in millions)
                                          2008                 2007
     D.C. Federal Pension Fund           $3,702.5             $3,701.1
     Judicial Retirement Fund              $124.8               $120.2
               Total                     $3,827.3             $3,821.3




                                      20

g. Actuarial Valuation

In FY 2008, the Office contracted with Ed Friend, Inc. (EFI), an actuarial services
provider, to perform the annual actuarial valuation as required by the Act. The actuarial
valuation is used to determine the pension liability of the retirement programs
administered by the Office.

As estimated by the actuary, as of October 1, 2008, the Federal Government’s total
liability for Federal Benefit Payments under the Police Officers’ and Firefighters’, and
Teachers’ Retirement Plans is approximately $8.7 billion. Of the $8.7 billion actuarial
liability, approximately $3.8 billion is funded by assets in the D.C. Federal Pension Fund
and $4.9 billion is unfunded.

EFI determined an actuarial total liability of $162.2 million for the Judges’ Retirement
Plan as of October 1, 2008. Of the $162.2 million actuarial liability, approximately
$128.4 million is funded by assets in the Judicial Retirement Fund and $33.8 million is
unfunded.

h. Financial Operations

Oracle Federal Financials (ORACLE)

Pursuant to a reimbursable services agreement ARC performs accounting services using
Oracle Federal Financial (ORACLE) for the Office. ORACLE is a core financial
management product used to process all financial transactions. The Office’s transactions
are entered into ORACLE both manually and via custom interfaces from ancillary
systems such as PRISM and GovTrip. ARC provides a report writer package called
Discoverer which allows the Office to create various accounting reports.

3-Day Close

Since April 2001, the Office has closed its books each month within three working days.
The Office has been rated green (the highest rating) since February 2002 for all data
quality checks on the monthly data quality scorecard maintained by Treasury’s Office of
Accounting and Internal Control.

Prompt Payment and Vendor Payment Discounts

The Office paid 99% of the 98 invoices received within the timeframes required by the
Prompt Payment Act. The Office’s systems integration contractor offers an early
payment discount as an incentive to make payments in less than the 30 days prescribed in
the Prompt Payment Act. The discounts are 1% for payment within 10 days of the
invoice date and 1/2% for payment within 20 days of the invoice date. As a result, the
Office saved $30,142.54 in FY 2008 by making payments within 10 days of the invoice
date. In FY 2007, the Office saved $69,150.13 by making payments within 10 days of
the invoice date.



                                      21

Electronic Payments

For reasons of reliability and security, Treasury's Fiscal Assistant Secretary and the
Financial Management Service encourage Federal agencies to use electronic payments.
In FY 2008, the Office paid 100% of the 157 payments, which include invoices and
travel reimbursements, by electronic funds transfer. Of the 157 payments, 71% were by
EFT and 29% by credit card. In FY 2007, of the 163 electronic payments made, 73%
were EFT and 27% were made by credit card.

i. Financial Statement Audit Opinion

KPMG LLP (KPMG), an independent public accounting firm, rendered an unqualified
opinion on the Office’s FY 2008 financial statements. This is the 10th consecutive year
that the Office’s financial statements have received an unqualified opinion.

KPMG noted no material weaknesses in the Office of D.C. Pensions internal control over
financial reporting. Also, the results of KPMG’s tests of compliance with laws and
regulations disclosed no instances of noncompliance or other matters that require
reporting under Government Auditing Standards or OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements.

j. Internal Control over Financial Reporting

The Office used the FY 2008 Guidance and Implementation Plan provided by Treasury’s
Office of the Deputy Chief Financial Officer to conduct a review of internal controls over
financial reporting as required by OMB Circular A-123, Management’s Responsibility for
Internal Controls, Appendix A, Internal Control Over Financial Reporting. ARC staff
members and the Office conducted tests by either inspection or use of the ARC SAS 70
review.

The Office conducted its assessment of the effectiveness of internal controls over
financial reporting, which included safeguarding of assets and compliance with
applicable laws and regulations, in accordance with the requirements of Appendix A of
OMB Circular A-123. Based on the results of this evaluation, the Office provided
reasonable assurance that its internal controls over financial reporting were operating
effectively and no material weaknesses were found in the design or operation of the
internal controls over financial reporting. The scope of the assessment was limited to the
Treasury-designated material consolidated financial statement lines identified in
Treasury’s guidance and internal financial reports produced for the Office. The Office
provided a compliance statement reflecting an unqualified assurance as of June 30, 2008.
In addition, the Office had no material weaknesses identified in FY 2007 that would give
cause to corrective actions in FY 2008.




                                      22

k. Reconciliation Project

Title XI of the Balanced Budget Act of 1997, as amended, states that the interim benefits
period began on October 1, 1997, and ends on the date Treasury notifies the District that
a trustee or Treasury will assume the duties of benefits administrator. With respect to the
retirement plans for teachers, police officers and firefighters, Treasury will not end the
interim benefits period until STAR is enhanced to calculate the split between federal and
District liability for post-June 30, 1997, retirees and their survivors and certain
reconciliation activities are complete.

With the completion of the core functionality in STAR and ability to calculate the federal
and District share of benefits, the Office began work on the Reconciliation Project. The
purpose of the Reconciliation Project is to, among other things, perform an accounting
and reconciliation of the amounts related to Federal and District liabilities for benefits
paid during the interim benefits period to plan members who retired after June 30, 1997.
The Office established a Reconciliation Project Team to evaluate the overall
reconciliation requirements. The initial stage of the project included the review of
current legislation and other documents, including Memorandums of Understanding
between the Treasury, DCRB and the District, that currently governs the reconciliation.
Through this review, the team plans to document the specific reconciliation requirements
outlined in these documents. The team expects to finalize the review of these documents
while continuing to plan for the next steps in the Reconciliation Project.

2. Future Focus

a. Actuarial Experience Study

The Office contracted with Ed Friend, Inc. (EFI), an actuarial services provider, to
prepare in FY 2009, a quintenial actuarial experience study to review and, if necessary,
modify the actuarial demographic assumptions used in the FY 2010 - 2014 valuations as
required by the Act. Demographic assumptions include the mortality, termination,
retirement and salary rates that are used to predict future payments of benefits. The more
closely the assumptions reflect the actual experience, the more accurate the annual
actuarial liability will be for each of the retirement plan funds. The Office is following
actuarial best practices by reviewing every five years the demographic assumptions used
in the valuations.

b. Split Benefit Regulations

In FY 2009, the Office plans to amend Part 29, Subpart C of Title 31 of the Code of
Federal Regulations, “Federal Benefit Payments Under Certain District of Columbia
Retirement Plans - Split Benefits” (Split Benefit Regulations). Pursuant to the Balanced
Budget Act of 1997, as amended (the Act), the Office has responsibility for payment of
benefits based on service accrued as of June 30, 1997, under the retirement plans for
District of Columbia teachers and police officers and firefighters. The statute creates a
situation in which some annuitants receive Federal Benefit Payments as a portion of their



                                      23

   total retirement benefit as well as additional payments from the District of Columbia for
   their service after June 30, 1997. Benefits partially paid by Treasury and partially paid
   by the District of Columbia are “split benefits.” The Split Benefit Regulations establish
   general principles that are applied to determine the amount of service creditable for
   Federal Benefit Payments and include examples in which the general principles are
   applied to a variety of benefit calculation scenarios.

   The Split Benefit Regulations were published in 2000, but the effective date was delayed
   until after STAR was fully implemented, which occurred in FY 2008. The proposed
   amendments to the Split Benefit Regulations establish additional rules and provide
   additional examples of benefit calculation scenarios. These amendments, which will be
   published in 2009, are introduced to simplify calculations in STAR and maintain
   consistency with the general principles established in the original regulations.

   c.   Reconciliation Project and Ending the Interim Benefits Period

   In FY 2009, the Office will continue to focus on the Reconciliation Project. The long-
   term project will require Treasury, DCRB, and the District Government to gain consensus
   on how to conduct the reconciliation. Per the current Interim Benefits MOU between
   Treasury and the District, the major requirements for the reconciliation are that: (1) the
   District and DCRB provide audited reports of their transactions affecting the retirement
   funds during the interim benefits period; and (2) the Treasury calculates split benefit
   payments for plan members who retired during the interim benefits period and reconciles
   these payments with amounts actually paid by the District to Treasury during the interim
   benefits period. The reconciliation will identify amounts owed to Treasury by the
   District and vice-versa. Other financial transactions that occurred after June 30, 1997
   may also be included in the Reconciliation Project.

   In addition to working on the Reconciliation Project, the Office will begin planning and
   evaluating all activities required for ending the Interim Benefits Period for the Teachers’,
   Police Officers’, and Firefighters Retirement Plans. As stated in the Balanced Budget
   Act of 1997, as amended, the interim benefits period began on October 1, 1997, and ends
   on the date Treasury notifies the District that Treasury or a trustee will assume the duties
   of benefits administrator.


D. Organization’s mission is effectively managed

1. Program Results

   a. Office of D.C. Pensions Performance Reporting

   During FY 2008, the Office distributed quarterly performance reports presenting
   findings, analysis and recommended actions with regard to both the services provided by
   the Office and the quality assurance activities completed for the services provided to the
   Office. The report presents these findings in each of the Office’s four primary


                                          24

performance areas: benefits administration, financial management, information services
and program management.

b. Quality Review

The Office performed quality assurance reviews on a statistical sample of new retiree and
survivor cases and Qualified Domestic Relation Orders (QDRO) processed each month.
The Office provided appropriate feedback to the benefits administrator to ensure
accuracy and assess training needs for the staff. The monetary error rate identified in the
Office’s review process in FY 2007 was 3.36%. In FY 2008, the error rate decreased
significantly to 2.00%. In addition, the Office completed a review of the benefits
administration support provided by ARC. In FY 2008, all payment files were transmitted
in a manner to ensure timely benefit payments. All third-party reporting was also
completed in a timely manner.

During FY 2008, the Office expanded its oversight activities at DCRB. In prior years,
the Office focused its quality assurance efforts on a review of pay related activities. In
FY 2008, the Office expanded that focus to include a review of data maintenance
activities such as changes to personal data, bank information, health benefits, and life
insurance. Through its review, the Office found that DCRB follows the established
processes and procedures for these activities with minimal errors.

The Office also expanded its oversight and quality assurance efforts at ARC to focus on
the review of STAR reports resulting from the new system functionality that enables the
benefit payment liability to be split between the Federal and District Governments. The
reviews identified process improvements which were implemented prior to the close of
the fiscal year.

c. Organizational Structure

In January of 2008, the Office re-structured its organization and reduced the number of
Assistant Directors reporting to the Director from three to two. Under the new
organizational structure, the Office Director continues to be responsible for overall
program management. The Assistant Directors are responsible for the following
functions: (1) Benefit and Systems Administration and (2) Finance and Resource
Administration. Service areas were also created within each of these two functions to
support critical services provided by the Office. Retirement, Technical and STAR
Services are managed within Benefits and Systems Administration, and Financial and
Management Services within Finance and Resource Administration. Two additional
service areas, Quality Assurance and Special Projects, are directly managed by the
Director. While each position is associated with a specific service area, the Office also
employs a cross-matrix approach. As a result, staff members execute their
responsibilities within their service area but also participate in activities outside their
respective service areas.




                                       25

   Service Areas Description:
   	 Quality Assurance: Manages program-wide quality assurance and risk management
      activities.
   	 Special Projects: Oversees program-wide special projects coordinating resources and
      monitoring progress.
   	 Retirement Services: Manages relationship for DCRB and other District entities, and
      serves as their single point-of-contact.
   	 Technical Services: Manages relationship for BPD and serves as their single point-
      of-contact.
   	 STAR Services: Oversees benefits administration (pension and payroll) and system
      hosting services.
   	 Financial Services: Oversees financial management and investment services.
   	 Management Services: Manages program-wide operational support functions,
      budgeting and internal control compliance.
   The service areas are designed to clarify points of contact with the Office’s key business
   partners, emphasize the Office’s key operational areas, and highlight key functions.

   d.	 Improved Employee Performance Management System

   In FY 2008, a new Employee Performance Management System was implemented. The
   new performance system uses performance commitments that are job specific and results
   oriented. Under the new system weight is assigned to performance commitments
   allowing supervisors to place varying importance to each commitment. The new
   performance system allowed offices to align performance plans with organizational
   goals, emphasize program results and employee accountability, and achieve a more
   meaningful distinction between performance levels.

   e.	 Employee Performance and Training

   The Office managers worked with each employee to achieve the Office’s and individual
   goals through frequent performance feedback, training and development. Management
   conducts quarterly performance reviews with each employee. Each employee has an
   Individual Development Plan, which is monitored throughout the year. All employees
   participate in required and optional training. Opportunities for employee development
   play an important role in decisions on allocation of work assignments.

2.	 Future Focus

   a. 	 Expanded Oversight of Benefits Administration Activities

   The Office will continue to expand its oversight and quality assurance program efforts
   related to benefits administration. As in the past, the main focus will continue to be on
   customer service and benefits processing. In FY 2009, the Office will also initiate formal
   quality assurance activities for system administration. These efforts will range from
   system availability and user access to system maintenance and development activities.


                                         26

   b. Organizational Structure

   The Office re-structured its organization to address future challenges as the major
   development efforts for STAR came to an end in May 2008. The Office will continue to
   communicate the organizational changes to staff and business partners while enhancing
   the new organizational areas. As the organization continues to mature, the Office will
   focus on its Quality Assurance and Special Projects Programs.

   The Quality Assurance Program was created to ensure Office program areas and business
   partners meet quality standards. The Quality Assurance Program will continue to
   leverage existing quality plans and reports with the goal to continue to create
   improvements. New areas will be identified for quality review and tools will be created
   to enhance the Program.

   The Special Projects Service Area was created to oversee the execution of Office-wide
   special projects. In addition, the Office will continue to work closely with business
   partners to coordinate resources and execute projects. New tools and techniques will be
   introduced to ensure strong oversight and monitoring of special projects.

   c. Long-term Strategic Planning

   The Office plans to develop a long-term strategic direction during FY 2009. As a result,
   the Office is in the process of developing a new multi-year Strategic Plan. The new plan
   will ensure the Office continues to meet its mission to implement the Secretary's
   responsibilities under Title XI of the Balanced Budget Act of 1997, as amended.


E. Annuitants received quality service
1. Program Results

   a. District of Columbia Retirement Board Performance Report

   During FY 2008, the District of Columbia Retirement Board (DCRB) periodically
   reported performance indicators for pension and payroll processing. The performance
   indicators reflect a balance between accuracy, timeliness, quality, and cost effectiveness.
   In addition, the Office of D.C. Pensions (the Office) tracked the performance indicators
   to ensure that the Office’s standards were being met. DCRB processed a volume of
   transactions that was consistent with prior years. The timeliness of the processing was
   also consistent with previous years.

   b. Annuitant Satisfaction

   DCRB uses a tool to help monitoring and tracking call volume. A monitoring system
   tracks the volume of calls and the availability of the representatives to answer the calls.
   DCRB continued to reach out for annuitant feedback regarding customer satisfaction.
   The annuitant survey form asks members to rate the patience, professionalism,


                                          27

knowledge, responsiveness, and courteousness of the person with whom the annuitant
spoke. In addition, the survey asks how satisfied the caller was with the process, their
overall experience with the Member Services Center, their wait time, and their perception
of customer service representative’s ability to understand their issue and help them.
Ratings range from 1 (excellent) to 5 (poor). Responses from the annuitants surveyed,
indicated that the services provided were excellent.

c. Benefits Administration Service Level Agreement

In FY 2008, the Office and DCRB signed a service level agreement (SLA) for benefits
administration. The SLA defines the responsibilities and expectations for the DCRB
Benefits Department and the Office in order to provide high level service to annuitants.
The SLA focuses on the entire benefits administration spectrum of activities from
processing to customer service and quality review.

d. 1099-R Print Quality Improvements

After receiving feedback from annuitants regarding the print quality of IRS
Form 1099-R, the Office, in partnership with DCRB and Treasury’s Bureau of the Public
Debt (BPD), Administrative Resource Center (ARC), implemented a software change to
correct the printing issues and enhance the print quality of the form. The implementation
of these changes greatly reduced the volume of calls received from annuitants regarding
the 1099-R forms.

e. Earnings Statement Improvements

In FY 2008, the Office implemented enhancements to the earnings statements. The new
earning statements include a larger text font size and more space for messages to
annuitants. The new statement also eliminated redundant information. In addition, ARC
leveraged an existing highly automated system to eliminate the extremely labor intensive
tasks of generating, printing, sorting and stuffing the earning statements and additional
correspondence to annuitants. As a result of these improvements, the Office expects to
realize annual savings of approximately $34,000 this fiscal year

f. Retirement Plan Information

Teachers’ Summary Plan Description (SPD)

In FY 2008, an updated SPD for the District of Columbia Teachers’ Retirement Plan was
completed and published. The SPD was designed to provide plan members with accurate
and easy to understand information about the Retirement Plan. This project was led by
DCRB with assistance from the Office and several other District stakeholders. The
updated SPD includes information on statutory changes to the plan and changes to the
regulations.




                                      28

   Judges’ Summary Plan Description

   In FY 2008, an updated SPD for the District of Columbia Judges’ Retirement Plan was
   completed. The SPD was designed to provide plan members with accurate and easy to
   understand information about the Retirement Plan. This project was led by the Office
   with assistance from District stakeholders.

2. Future Focus

   a. Retirement Plan Information

   Judges’ Summary Plan Description

   The Office expects to publish and distribute the updated version of the SPD for the
   District of Columbia Judges’ Retirement Plan in early FY 2009. The updated SPD
   includes information on eligibility, benefit calculations and receiving benefits.




                                         29

IV. Five-Year History of the District of Columbia Pensions Program

   A. Annuitants (as of September 30, 2008)

                                       Police Officers’ and Firefighters’,
                                       and Teachers’ Retirement Plans’

                  16
                                                                              Police/Fire
                                                                              Teachers
                  14

                               7,639       7,646     7,639        7,607
                       7,673
                  12


                  10
      Thousands




                   8
                                                                             Pension Population
                                                                              Year   Annuitants
                   6                                                          2004    13,170
                               5,827                 5,852        5,896
                       5,497               5,805                              2005    13,466
                                                                              2006    13,451
                   4                                                          2007    13,491
                                                                              2008    13,503

                   2


                   0
                       2004    2005        2006       2007        2008




                                        Judges’ Retirement Plan
                  80



                                             77
                                                          75        75
                                  73
                  70

                         69




                  60
                        2004    2005        2006       2007        2008




                                                    30

B. Investments (as of September 30, 2008)

                                             Supplemental, Trust and D.C. Federal Pension Funds’
                                                              Net Investments
              $4




                                                              3.762




                                                                                     3.708




                                                                                                                                   3.703
                                                                                                            3.701
                                                                                                                                           All funds are
              $3                                                                                                                           invested in non-
                                                                                                                                           marketable
                                                                                                                                           Government
                                                                                                                                           Account Series
   Billions




                                                                                                                                           (GAS) securities.
              $2
                     2.087




                                                                                                                                           The Supplemental
                                                                                                                                           and Trust funds
                                     1.717




                                                                                                                                           assets as of
                                                                                                                                           October 1, 2004,
                                                                                                                                           were combined to
              $1                                                                                                                           create the D.C.
                                                                                                                                           Federal Pension
                                                                                                                                           Fund.


              $0
                               2004                    2005                   2006                   2007                   2008

                             Supplemental Fund                    Trust Fund             D.C. Federal Pension Fund




                                                              Judicial Retirement Fund
                                                                  Net Investments
              $140
                                                                                                                    124.8




              $120
                                                                                             120.2
                                                                      113.9
                                                   107.4




              $100
                             101.9




                                                                                                                                            All funds are
                                                                                                                                            invested in non-
 Millions




               $80                                                                                                                          marketable
                                                                                                                                            Government
                                                                                                                                            Account Series
               $60                                                                                                                          (GAS) securities.
                                                                                                                                            The fund has grown
                                                                                                                                            each year as
                                                                                                                                            contributions and
               $40
                                                                                                                                            earnings exceed
                                                                                                                                            benefit payments
                                                                                                                                            and administrative
               $20                                                                                                                          expenses.


                $0
                                      2004                 2005                2006                  2007                   2008




                                                                                     31

                 B. Investments (as of September 30, 2008) continued


                                                            Investment Average Annual

                                                                  Rate of Return*

                          6%



                          5%




                                                             4.9
                                4.9




                                                                                                    4.7

                                                                                                          4.5

                                                                                                                4.4

                                                                                                                      4.2
                          4%
Rate of Return




                                                                                                                                        2004
                                                                                                                                        2005
                          3%                                                                                                            2006
                                                                                                                                        2007
                          2%                                                                                                            2008


                          1%


                          0%

                                      Supplemental Fund              Trus t Fund               D.C. Federal Pens ion

                                                                                                      Fund**


                 *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                 average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                 premiums and discounts.
                 **The Supplemental Fund and the Trust Fund were combined October 1, 2004, to create the D.C. Federal Pension Fund.




                                                                Investment Average Annual
                                                                      Rate of Return*
                          7%


                          6%
                                            5.7           5.7            5.7             5.6              5.1
          Rateof Return




                                                                                                                                    2004
                          4%                                                                                                        2005
                                                                                                                                    2006
                                                                                                                                    2007
                          3%
                                                                                                                                    2008

                          1%


                          0%
                                                          Judicial Retirement Fund

                     *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                     average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                     premiums and discounts.




                                                                             32

           C. Payments by Category (as of September 30, 2008)

                                 Benefits, Refunds, and Administrative Expenses


            $600


            $500


            $400
                                                                                                Benefits &
Millions




                                                                                                Refunds
            $300                                                                                Administrative
                                                                                                Expenses*
            $200


            $100


              $0
                       2004        2005          2006            2007       2008

     *Administrative expenses include reimbursement of the District administrative expenses,
     ODCP salaries and contractor support.




                              Benefits, Refunds, and Administrative Expenses


                   Fiscal        Benefits/         Administration        Benefits and      Administrative
                   Year        Refunds Paid          Expenses*           Refunds %          Expenses %

                   2004           $462M                 $20M                 96%                 4%


                   2005           $464M                 $19.5M               96%                 4%


                   2006           $494M                 $18.4M               96%                 4%


                   2007           $504M                 $15.7M               97%                 3%


                   2008           $506M                 $18.4M               96%                 4%




             *Administrative expenses include reimbursement of the District administrative expenses,
             ODCP salaries and contractor support.




                                                           33
V. Limitation of the Financial Statements

   The principal financial statements have been prepared to report the financial position and
   results of operations of the Office of D.C. Pensions (the Office), pursuant to the requirements
   of the 31 U.S.C. 3515(b).

   While the statements have been prepared from the books and records of the Office in
   accordance with U.S. generally accepted accounting principles for Federal entities and the
   formats prescribed by the Office of Management and Budget, the statements are in addition
   to the financial reports used to monitor and control budgetary resources which are prepared
   from the same books and records.

   The statements should be read with the realization that they are for a component of the
   U.S. Government, a sovereign entity.




                                             34

               PART 2 

INDEPENDENT AUDITORS’
             REPORTS
37

38

39

40

41

(This page left intentionally blank.)
              PART 3 

FINANCIAL STATEMENTS
           AND NOTES
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Balance Sheets
As of September 30, 2008 and 2007
(in thousands)

                                                                                 2008               2007

Assets
     Entity Assets
          Intra-Governmental Assets
               Fund Balance with Treasury (Note 3)                           $          317     $          254
               Investments in GAS Securities, Net (Note 4)                        3,827,309          3,821,315
               Interest Receivable from GAS Securities                               31,506             34,123
               Advances to Others                                                        73                 72
          Accounts Receivable, Net                                                    6,832             30,860
          Software-In-Development                                                         -              1,797
          ADP Software, Net (Note 5)                                                  8,505             12,073
          Equipment, Net (Note 6)                                                        17                 73
Total Assets                                                                 $    3,874,559     $    3,900,567

Liabilities
     Liabilities Covered By Budgetary Resources
            Intra-Governmental
                 Accounts Payable                                            $           46     $           32
                 Accrued Payroll and Benefits                                            23                 17
            Accounts Payable                                                          3,822              4,493
            Accrued Pension Benefits Payable                                         48,711             45,296
            Actuarial Pension Liability (Note 2j)                                 3,683,632          3,679,487
            Accrued Payroll and Benefits                                                246                194
     Total Liabilities Covered By Budgetary Resources                             3,736,480          3,729,519

     Liabilities Not Covered By Budgetary Resources
          Actuarial Pension Liability                                             5,119,756          5,312,562
Total Liabilities                                                                 8,856,236          9,042,081

Net Position
     Cumulative Results of Operations - Earmarked                                 (4,981,677)       (5,141,514)
Total Net Position                                                                (4,981,677)       (5,141,514)

Total Liabilities and Net Position                                           $    3,874,559     $    3,900,567

The accompanying notes are an integral part of these financial statements.




                                                              45

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Net Cost
For the Years Ended September 30, 2008 and 2007
(in thousands)

                                                                             2008            2007

Program Costs
    Administrative Expenses (Note 7)                                  $         18,414   $      15,653
    Pension Expense (Note 8)                                                   319,660         429,837
Total Program Costs                                                            338,074         445,490

Less: Earned Revenues
    Interest Earned/Loss from GAS Securities, Net                              150,025         159,235
    Employee Contributions                                                         597             577
Net Cost of Operations                                                $        187,452   $     285,678

The accompanying notes are an integral part of these financial statements.




                                                       46

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2008 and 2007
(in thousands)

                                                                                    2008                 2007
                                                                                 Earmarked            Earmarked

Cumulative Results of Operations

      Net Position - Beginning of Year                                       $      (5,141,514)   $      (5,208,738)

      Budgetary Financing Sources
         Appropriations Used                                                          347,180              352,780

      Other Financing Sources
          Imputed Financing Sources                                                       109                     122

      Total Financing Sources                                                         347,289              352,902

      Net Cost of Operations                                                         (187,452)             (285,678)

      Net Change                                                                      159,837               67,224

      Net Position - End of Year                                             $      (4,981,677)   $      (5,141,514)

The accompanying notes are an integral part of these financial statements.




                                                            47

Departmental Offices
Office of D.C. Pensions
Combined Statements of Budgetary Resources
For the Years Ended September 30, 2008 and 2007
(in thousands)

                                                                             2008               2007

Budgetary Resources
Unobligated Balance - brought forward                                $                 76   $            -
Recoveries of Prior Year Unpaid Obligations                                         2,334              2,614
Budget Authority:
   Appropriations                                                              846,433            903,530
   Spending Authority from Offsetting Collections:
      Earned:
       Collected                                                                35,216             28,613
Temporarily Unavailable Pursuant to Public Law                                  (4,145)           (34,047)
Total Budgetary Resources                                            $         879,914      $     900,710

Status of Budgetary Resources
Obligations Incurred:
    Direct                                                           $         879,914      $     900,634
Unobligated Balance:
    Exempt from Apportionment                                                        -                 76
Total Status of Budgetary Resources                                  $         879,914      $     900,710

Change in Obligated Balance
   Unpaid obligations brought forward, Oct. 1                        $          59,082      $      61,266
Obligations Incurred                                                           879,914            900,634
Gross outlays                                                                 (876,762)          (900,204)
Recoveries of Prior Year Unpaid Obligations, Actual                             (2,334)            (2,614)
Unpaid Obligated Balance, Net, End of Period:                                   59,900             59,082

Net Outlays
   Gross Outlays                                                               876,762            900,204
   Offsetting collections                                                      (35,216)           (28,613)
   Distributed offsetting receipts                                            (147,325)          (197,970)
Net Outlays                                                          $         694,221      $     673,621

The accompanying notes are an integral part of these financial statements.




                                                  48

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Notes to Financial Statements
September 30, 2008 and 2007


1) Reporting Entity
   Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act), the
   Secretary of the Treasury (the Secretary) assumed certain responsibilities for a specific
   population of annuitants under the following District of Columbia (District) retirement plans:
   the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan and the
   Judges’ Retirement Plan. Specifically, the Secretary is responsible for administering the
   retirement benefits earned by District teachers, police officers and firefighters based upon
   service accrued prior to July 1, 1997, and retirement benefits earned by District judges,
   regardless of when service accrued.

   The Secretary’s responsibilities include: (1) making accurate and timely benefit payments;
   (2) investing fund assets; and (3) funding pension benefits. To carry out these
   responsibilities, Treasury’s Office of D.C. Pensions (the Office) engages in a wide range of
   legal, policy and operational activities in the areas of benefits administration, information
   technology, financial management and administration. The Office coordinates with many
   District entities and stakeholders to administer its responsibilities.

   The Office reports to the Deputy Assistant Secretary for Human Resources and Chief Human
   Capital Officer (DASHR). The DASHR reports to the Assistant Secretary for Management
   and Chief Financial Officer (ASM/CFO). ASM/CFO reports through the Deputy Secretary to
   the Secretary of the Treasury.

   a.	 District of Columbia Teachers, Police Officers, and Firefighters Federal Pension Fund
   Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004, Pub.
   L. 108-489, Treasury established the District of Columbia Teachers, Police Officers, and
   Firefighters Federal Pension Fund (the D.C. Federal Pension Fund – 20X5511). Effective
   October 1, 2004, the assets and liabilities of the District of Columbia Federal Pension
   Liability Trust Fund (the Trust Fund - 20X8230) and the Federal Supplemental District of
   Columbia Pension Fund (the Supplemental Fund – 20X5500) were transferred to the
   D.C. Federal Pension Fund. The D.C. Federal Pension Fund is used for the accumulation of
   funds to finance obligations of the Federal Government for benefits and necessary
   administrative expenses for the Police Officers’ and Firefighters’, and Teachers’ Retirement
   Plans under the provisions of the Act. The D.C. Federal Pension Fund consists of the
   following:
   	 Amounts deposited from the proceeds of assets transferred from the Trust Fund and the
      Supplemental Fund, which included the proceeds of assets transferred to Treasury from
      the District of Columbia Retirement Board (DCRB) pursuant to the Act



                                           49

	 Amounts deposited from the General Fund of the Treasury
	 Income earned on the investments held in the D.C. Federal Pension Fund
	 Reimbursement from the D.C. Government for the District’s estimated and actual share
   of benefits paid from the D.C. Federal Pension Fund
The portion of the D.C. Federal Pension Fund that is not needed to meet the level of current
federal benefit payments, refunds, and net administrative expenses is invested in non-
marketable Government Account Series (GAS) securities issued by the Treasury’s Bureau of
the Public Debt (BPD). Investments are made in securities with maturities suitable to the
needs of the D.C. Federal Pension Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the D.C. Federal
Pension Fund (from the General Fund of the Treasury) an annual amortization amount. The
annual amortization amount, as determined by an enrolled actuary, is the amount necessary
to amortize the original unfunded liabilities of the retirement programs assumed by the
Federal Government over 30 years, the net experience gains or losses over 10 years, and any
other changes in actuarial liability over 20 years. The amount paid into the D.C. Federal
Pension Fund during FY 2008 and FY 2007 were $340.2 million and $345.4 million,
respectively.
b.	 District of Columbia Judicial Retirement and Survivors Annuity Fund

Pursuant to the Act, Treasury established the District of Columbia Judicial Retirement and
Survivors Annuity Fund (the Judicial Retirement Fund – 20X8212).
The Judicial Retirement Fund is used for the accumulation of funds to finance obligations of
the Federal Government for benefits and necessary administrative expenses of the Judges’
Plan under the provisions of the Act.
The Judicial Retirement Fund consists of the following:
	 Amounts deposited from the proceeds of assets transferred to Treasury from the District
   of Columbia Retirement Board (DCRB) pursuant to the Act
	 Amounts deposited from the General Fund of the Treasury
	 Income earned on the investments held in the Judicial Retirement Fund
	 Employee contributions to the Judicial Retirement Fund
The portion of the Fund that is not needed to meet the level of current benefit payments,
refunds and net administrative expenses is invested in GAS securities. Investments are made
in securities with maturities suitable to the needs of the Judicial Retirement Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the Judicial
Retirement Fund (from the General Fund of the Treasury) an amount equal to the normal cost
for the year, an annual amortization amount and the covered administrative expenses for the
year. The annual amortization amount, as determined by an enrolled actuary, is the amount
necessary to amortize the original unfunded liability of the retirement program assumed by


                                       50

   the Federal Government over 30 years, the net experience gains or losses over 10 years, and
   any other changes in actuarial liability over 20 years. The annual payment to the Judicial
   Retirement Fund also includes an amount necessary to fund the normal cost of the retirement
   program not covered by employee contributions. The amounts paid into the Judicial
   Retirement Fund during FY 2008 and FY 2007 were $7.0 million and $7.4 million
   respectively.

2) Summary of Significant Accounting Policies
   a. Basis of Accounting and Presentation
   The Office’s financial statements consist of the Consolidated Balance Sheets, the
   Consolidated Statements of Net Cost and the Consolidated Statements of Changes in Net
   Position, and the Combined Statements of Budgetary Resources, all of which are prescribed
   by Office of Management and Budget (OMB) Circular A-136, Financial Reporting
   Requirements. The financial statements have been prepared from the accounting records of
   the Office in conformity with accounting principles generally accepted in the United States
   of America. Accounting principles generally accepted in the United States of America for
   federal entities are prescribed by the Federal Accounting Standards Advisory Board
   (FASAB), which is designated the official accounting standards setting body of the Federal
   Government by the American Institute of Certified Public Accountants. The statements are
   different from the financial reports, also prepared by the Office, pursuant to OMB directives
   that are used to monitor and control the Office’s use of budgetary resources.
   b. Fund Balance with Treasury
   Fund balance with Treasury represents appropriated funds remaining as of fiscal year-end
   from which the Office is authorized to make expenditures and pay liabilities resulting from
   operational activity, except as restricted by law.
   c. Investments
   Pursuant to the Act and Section 130 of Division A of Pub. L. 105-277 (1998), the Secretary
   invests the assets of the D.C. Federal Pension Fund and the Judicial Retirement Fund in
   GAS, market-based (“MK”) securities — special non-marketable Treasury securities that
   mirror the prices of marketable securities with similar terms, issued and redeemed by BPD.
   The Office follows Treasury investment policy guidelines and determines whether the
   investments should be made in MK bills, MK notes, or MK bonds. The maturities on
   investments range from less than one year to approximately nine years.
   Amounts that are not necessary to meet current obligations are invested in MK securities.
   Amounts needed to meet current obligations are invested overnight in one-day MK
   securities, which are redeemed at face value plus accrued interest. If amounts held in cash,
   overnight securities and maturing securities are inadequate to meet required outlays,
   investments would be selected for redemption based on a review of the advantages of each of
   the alternatives and an assessment of the appropriateness of the securities in the portfolio
   under current investment policy.




                                           51

Investments are valued at cost, adjusted for unamortized premiums and discounts, if
applicable. The premiums and discounts are recognized as adjustments to interest income,
utilizing the effective interest method.
d.	 Advances and Prepayments
The carrying amount of advances and prepayments to the Department of the Treasury’s
Working Capital Fund approximate fair value as they represent the amounts expected to be
paid.
e.	 Software-In-Development
Software-in-development as of September 30, 2007, consisted of independent contractor
costs incurred to develop Release 5 of a pension/payroll system to support the Police
Officers’ and Firefighters’, and Teachers’ Retirement Plans. During FY 2008, the project
was completed and such costs were transferred to ADP Software.
f.	 ADP Software, Net
ADP Software, Net represents the pension benefit and payroll software purchased and
independent contractor costs incurred in FY 2000 – FY 2008 to develop a pension/payroll
system to meet Treasury’s and D.C.’s needs (net of accumulated amortization). Components
of this software that calculate benefit payments for the judges and for a portion of the
teachers, police officers and firefighters were placed in service during FY 2003. An
additional component of the pension/payroll system for the remaining population of the
teachers, police officers and firefighters was placed in service during FY 2005. Another
component of the pension/payroll system was placed in service during FY 2007 to implement
split benefit requirements for new retirements. Lastly, a final component of the
pension/payroll system was placed in service during FY 2008 to implement split benefit
requirements for the remaining population.
Internal use software is recorded at cost and capitalized in accordance with the following
thresholds:
	 Capitalize software acquisitions that exceed $50,000
	 Capitalize bulk purchases (a single purchase of like items in the same lot with a unit cost
   greater than $5,000 and less than $50,000) that exceed $500,000
	 Capitalize aggregate purchases (multiple purchases of items directly related to a specific
   project and unit cost is less than $50,000) that exceed $500,000
Software is amortized using the straight-line method over an estimated useful life of five
years, with six months amortization taken in the first and last year.
g.	 Equipment, Net
Equipment, Net represents computer hardware purchases (net of accumulated depreciation)
placed in service and used to run ADP Software and operation of the pension/payroll system.
Equipment is recorded at cost and capitalized in accordance with the following thresholds:



                                        52

•	 Capitalize equipment acquisitions that exceed $50,000

•	 Capitalize bulk purchases (a single purchase of like items in the same lot with a unit cost
   greater than $5,000 and less than $50,000) that exceed $500,000

•	 Capitalize aggregate purchases (multiple purchases of items directly related to a specific
   project and unit cost is less than $50,000) that exceed $500,000
Equipment is depreciated using the straight-line method over an estimated useful life of five
years, with six months depreciation taken in the first and last year.
h.	 Accounts Receivable
Accounts receivable consist primarily of: (a) the amount due from the D.C. Government for
the District’s share of benefits paid by the Office to which the recipients became entitled
during the reporting period, but which, by law, are paid on the first business day of the
subsequent period, (b) amounts due from the D.C. Government for the District’s estimated
share of refunds paid by the Office in prior years, (c) employee retirement contributions
withheld from judges’ salaries not yet transferred from the General Services Administration
to the Judicial Retirement Fund before the end of each fiscal year, and (d) amounts due from
annuitants and survivors as the result of benefit overpayments.

i.	 Accrued Pension Benefits Payable
Accrued pension benefits payable pertains, for the most part, to retirement benefits to which
the recipients became entitled during the reporting period, but which, by law, are paid on the
first business day of the subsequent period. This accrual may also include amounts for
refund claims for which processing was not completed during the reporting period, but will
be paid in the subsequent period.
j.	 Actuarial Pension Liability
The actuarial cost method used to determine costs for the Police Officers’ and Firefighters’
Retirement Plan, Teachers’ Retirement Plan, and Judges’ Retirement Plan is the Aggregate
Entry Age Normal Cost Method. Under this funding method, the normal cost is a level
percent of covered salary, which, along with the member contributions (under the Judges’
Plan only), will pay for projected benefits at retirement for the active plan participants. The
level percent developed is called the normal cost rate and the product of that rate and payroll
is the normal cost.
The actuarial accrued liability is that portion of the present value of projected benefits that
will not be paid by future normal costs or member contributions. The difference between this
liability and the funds accumulated at the same date is referred to as the unfunded actuarial
pension liability. The actuarial pension liability is based upon assumptions made by
Treasury. The assumptions used to calculate the pension liability as of October 1, 2008, were
an annual rate of investment return of 5.2% in FY 2009 based on the securities held in the
Judicial Retirement Fund, gradually increasing to 6% by FY 2015; an annual rate of
investment of 4.7% in FY 2009 based on securities held in the D.C. Federal Pension Fund,
gradually increasing to 6% by FY 2014; an annual inflation and cost-of-living adjustment of



                                         53

3.5%; and salary increases at an annual rate of 3.5% for judges, 5.5% for teachers, and 6.5%
for police officers and firefighters. The assumptions used to calculate the pension liability as
of October 1, 2007, were an annual rate of investment return of 6% based on the securities
held in the Judicial Retirement Fund, an annual rate of investment of 4.7% in FY 2008 based
on securities held in the D.C. Federal Pension Fund, gradually increasing to 6% by FY 2013;
an annual inflation and cost-of-living adjustment of 3.5%; and salary increases at an annual
rate of 3.5% for judges, 5.5% for teachers, and 6.5% for police officers and firefighters.
k. Appropriations Received and Used
Treasury is required to make annual payments from the General Fund of the Treasury to the
Judicial Retirement Fund and the D.C. Federal Pension Fund to amortize the original
unfunded liabilities assumed by the Federal Government and any subsequent changes in
liabilities over a period of time and to fund the normal cost and necessary administrative
expenses of the Judicial Retirement Fund. The appropriations are received into the Office’s
appropriation funds and are paid out to the Judicial Retirement Fund and the D.C. Federal
Pension Fund to be invested in non-marketable GAS securities. In accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 7, the payment from the
Office’s appropriation funds results in an appropriation used, as reported in the
accompanying Consolidated Statements of Changes in Net Position. Appropriations received
and used for the years ended September 30, 2008 and 2007 were $347.2 million and
$352.8 million, respectively.
l. Treasury Employee Retirement Plans
The D.C. Federal Pension Fund and Judicial Retirement Fund pay salaries and benefits of
Treasury employees who work in the Office as reasonable and necessary expenses incurred
in carrying out the Secretary’s responsibilities under the Act. These salaries and benefits are
split 90% and 10% between the D.C. Federal Pension Fund and the Judicial Retirement
Fund, respectively.
The Office’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). FERS was established by Pub. L. 99-335.
Pursuant to this law, FERS and Social Security automatically cover most employees hired
after December 31, 1983. Employees hired before January 1, 1984, elected to either transfer
to FERS or remain in CSRS.
Most employees are eligible to contribute to the Thrift Savings Plan (TSP). For employees
participating in FERS, TSP accounts are automatically established and the D.C. Federal
Pension Fund and the Judicial Retirement Fund make mandatory contributions of one percent
of the Treasury employees’ base pay to the accounts. In addition, the Funds make matching
contributions, ranging from 1% to 4% of base pay, for FERS eligible employees who
contribute to their TSP accounts. Pursuant to law, mandatory and matching contributions are
not made to the TSP accounts established for CSRS employees.
FERS employees and certain CSRS reinstatement employees participate in the Social
Security program. The D.C. Federal Pension Fund and Judicial Retirement Fund remit the
employer’s share of the required contributions for eligible employees.



                                         54

The D.C. Federal Pension Fund and Judicial Retirement Fund do not report information
pertaining to the CSRS and FERS retirement plans covering Treasury employees. The
U.S. Office of Personnel Management is responsible for reporting amounts such as plan
assets, accumulated plan benefits, and related unfunded liabilities, if any.
m. President’s Budget
The Budget of the United States (also known as the President's Budget), with actual numbers
for FY 2008, was not published at the time that these financial statements were issued. The
President's Budget for FY 2010, which includes the Office’s budget within the Other
Independent Agencies’ budget appendix, is expected to be published in January or
February 2009. It will be available from the United States Government Printing Office. The
FY 2007 Statement of Budgetary Resources (SBR) was reconciled to the Program and
Financing (P & F) Schedules within the President’s Budget for FY 2009 and there were no
differences for budgetary resources, status of budgetary resources, and net outlays.
Earnings on investments in U.S. securities, federal (as reported in the annual President’s
Budget) consists of interest collected from GAS securities less premiums and interest
purchased. Interest earned from GAS Securities (as reported in the financial statements)
consists of interest earned from GAS securities and the amortization of premiums and
discounts.

n. Earmarked Funds

Funding Sources

All proceeds received and deposited by the Office of D.C. Pensions are earmarked for the
purpose of providing annuity payments for retired District of Columbia teachers, police
officers and firefighters for services earned prior to July 1, 1997 and for retirement benefits
earned by District of Columbia judges, regardless of when services were earned.
Funding for the Judicial Fund is authorized by 111 Stat. 757, Sec. 11251, P.L. 105-33 as
amended by 112 Stat. 2681-534, Sec. 804(a)(4), P.L. 105-277.
Funding for the Federal Pension Fund is authorized by 118 Stat. 3967, Sec. 11084(a),
P.L. 108-149.
Sources of revenue or other financing sources for the years ended September 30, 2008 and
2007 were annual appropriations, employee contributions, and interest earnings from
investments.

Intra-governmental Investments in Treasury Securities

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash receipts collected from the public for an
earmarked fund are deposited in the U.S. Treasury, which uses the cash for general
Government purposes. Treasury securities are issued to the Office of D.C. Pensions as
evidence of its receipts. Treasury securities are an asset to the Office of D.C. Pensions and a


                                         55

   liability to the U.S. Treasury. Since the Office of D.C. Pensions and the U.S. Treasury are
   both parts of the Government, these assets and liabilities offset each other from the
   standpoint of the Government as a whole. For this reason, they do not represent an asset or a
   liability in the U.S. Government-wide financial statements.

   Treasury securities provide the Office of D.C. Pensions with authority to draw upon the
   U.S. Treasury to make future benefit payments or other expenditures. When the Office of
   D.C. Pensions requires redemption of these securities to make expenditures, the Government
   finances those expenditures out of accumulated cash balances, by raising taxes or other
   receipts, by borrowing from the public or repaying less debt, or by curtailing other
   expenditures. This is the same way that the Government finances all other expenditures.


3) Fund Balance with Treasury
   Fund balance with Treasury and the status of Fund balance with Treasury as of 

   September 30, 2008 and 2007, consisted of the following (in thousands): 



                                                                        2008                 2007
     Fund balances:
       Trust funds                                             $             15          $       15
       Special funds *                                                      302                 239
     Total fund balance with Treasury                          $            317          $      254
     * OMB Circular A-11 defines special funds as a Federal fund account for receipts

       earmarked for specific purposes and the expenditure of these receipts.





                                                                        2008                 2007
     Status of fund balance with Treasury
       Obligated balance not yet disbursed                      $            317         $      254
     Total                                                      $            317         $      254




                                                  56

4) Investments in GAS Securities - Net
   Investments in GAS securities – net as of September 30, 2008 and 2007 consisted of the
   following (in thousands):

                                                                         2008

                                                         Unamortized
                                                          Premium,         Investments           Market
                                           Cost              Net               Net               Value
     Intragovernmental Securities
        Non-marketable par value      $     180,218              —            180,218               180,218
        Non-marketable market-based       3,581,041          66,050         3,647,091             3,785,037

                  Total               $   3,761,259          66,050         3,827,309             3,965,255


                                                                       2007
                                                         Unamortized
                                                          Premium,          Investments          Market
                                            Cost             Net                Net              Value
   Intragovernmental Securities
     Non-marketable par value         $     261,820                —              261,820         261,820
     Non-marketable market-based          3,502,594             56,901          3,559,495       3,574,715
                 Total                $   3,764,414             56,901          3,821,315       3,836,535



   The amortization method utilized by the Office is the effective interest method. The market
   value for notes and bonds is calculated using rates for September 30, 2008 and 2007, as
   published in the Treasury Quote Sheets prepared by Treasury’s Office of Market Finance.
   Included in this figure are a net unrealized gain of $137.9 million as of September 30, 2008
   and a net unrealized gain of $15.2 million as of September 30, 2007.

   The amortized cost of non-marketable market-based GAS securities as of
   September 30, 2008 and 2007, by maturity date, are as follows (in thousands):

                                                                         2008                        2007
    Less than or equal to 1 year                            $            727,628            $        525,580
    More than 1 year and less than
      or equal to 5 years                                           2,172,016                      2,495,668
    More than 5 years and less than
      or equal to 10 years                                               747,447                     538,247
                   Total                                    $       3,647,091               $      3,559,495




                                                   57

5) ADP Software, Net
   The components of ADP software, net as of September 30, 2008 and 2007 are as follows
   (in thousands):
                                                                 2008                2007
     ADP software                                    $            40,073         $    38,383
     Accumulated depreciation                                    (31,568)            (26,310)
     ADP software, net                               $             8,505         $    12,073


6) Equipment, Net
   The components of equipment, net as of September 30, 2008 and 2007 are as follows
   (in thousands):
                                                                  2008               2007
     ADP hardware                                        $            500        $       500
     Accumulated depreciation                                        (483)              (427)
     Equipment, net                                      $               17      $          73


7) Administrative Expenses

   Administrative expenses for the years ended September 30, 2008 and 2007 are as follows
   (in thousands):
                                                                     2008             2007
   Intragovernmental expenses
      Salaries and related benefits                          $             560            562
      Contractual services                                               2,636          2,327
      Rent                                                                 789            780
      Noncapitalized equipment/software                                      2              4
      Other                                                                 17             64
          Total intragovernmental expenses                   $           4,004          3,737


   Public expenses
     Salaries and related benefits                           $           2,105          1,988
     Contractual services                                                6,964          2,872
     Rent                                                                   —               1
     Noncapitalized equipment/software                                       3             42
     Amortization/Depreciation                                           5,313          6,996
     Other                                                                  25             17
          Total public expenses                              $          14,410         11,916


               Total administrative expenses                 $          18,414         15,653



                                               58

   Included in the administrative expenses are amounts incurred by the D.C. Federal Pension
   Fund and Judicial Retirement Fund for intra-governmental activity totaling $3,575 thousand
   and $429 thousand, respectively, for 2008, and $3,342 thousand and $395 thousand,
   respectively, for 2007.


8) Pension Expense
   Pension expense for the plan years ended September 30, 2008, and 2007, includes the
   following components (in thousands):
                                                             2008             2007
     Normal cost                                       $       4,200            4,500
     Actuarial (gain)/loss during the period                 (99,240)          (1,663)
     Interest on pension liability during the
        period                                               414,700          427,000
                   Total pension expense               $     319,660          429,837


   Federal Benefit Payments
   Federal pension benefits paid during the plan years were $498.6 million and $7.2 million
   from the D.C. Federal Pension Fund and Judicial Retirement Fund, respectively, for 2008,
   and $496.5 million and $7.2 million, respectively, for 2007. For 2008, approximately $0.6
   million represents contribution refunds to plan participants of the D.C. Federal Pension Fund.
   For 2007, approximately $0.9 million represents contribution refunds to plan participants of
   the D.C. Federal Pension Fund. In FY 2008, there was an actuarial loss in each of the funds
   due to lowering the investment rate assumption. There was an actuarial gain in the
   D.C. Federal Pension Fund and an actuarial loss in the Judicial Retirement Fund due to plan
   experience. The net result was a total net actuarial gain in the two funds of $99.2 million. In
   FY 2007, there was an actuarial loss in the D.C. Federal Pension Fund due to lowering the
   investment rate assumption. This was offset by actuarial gains in both funds due to plan
   experience, which resulted in a total net actuarial gain in the two funds of $1.7 million.




                                                59

9) Reconciliation of Net Cost of Operations to Budget
   The Reconciliation of Net Cost of Operations to Budget explains the difference between the
   budgetary net obligations and the proprietary net cost of operations. As of
   September 30, 2008, and 2007, the Reconciliation of Net Cost of Operations to Budget
   consisted of the following (in thousands):

                                                                                              2008            2007

   Budgetary Resources Obligated
         Obligations Incurred                                                             $    879,914    $    900,634
         Less: Spending Authority from Offsetting Collections and Adjustments                   37,550          31,227
         Obligations Net of Offsetting Collections and Recoveries                              842,364         869,407
         Less: Offsetting Receipts                                                             147,325         197,970
         Net Obligations                                                                       695,039         671,437
         Imputed Financing from Costs Absorbed by Others                                           109             122
         Total Resources Used to Finance Activities                                            695,148         671,559
   Resources Used to Finance Items Not Part of the Net Cost of Operations
         Change in Budgetary Resources Obligated for Goods, Services and
           Benefits Ordered but not yet Provided                                                (1,995)           (867)
         Resources that Fund Expenses Recognized in Prior Periods                              176,157          79,347
         Resources that Finance the Acquisition of Assets or Liquidation of Liabilities           (107)          4,169
         Other Resources or Adjustments to Net Obligated Resources that do not
           Affect Net Cost of Operations                                                       347,180         352,780
   Total Resources Used to Finance Items not part of the Net Cost of Operations                521,235         435,429
   Total Resources Used to Finance Net Cost of Operations                                      173,913         236,130
   Components Requiring or Generating Resources in Future Periods
         Increase in Exchange Revenue Receivable from the Public                                     -               1
         Future Funded Expenses                                                                 11,525           4,393
   Total Components of Net Cost of Operations that will Require or Generate
    Resources in Future Periods                                                                 11,525           4,394
   Components not Requiring or Generating Resources
         Depreciation and Amortization                                                           3,439           8,782
         Other                                                                                  (1,425)         36,372
   Total Components of Net Cost Operations that will not Require or Generate
    Resources in Future Periods                                                                  2,014          45,154
   Total Components of Net Cost Operations that will not Require or Generate
    Resources in Current Periods                                                                13,539          49,548
   Net Cost of Operations                                                                 $    187,452    $    285,678




                                                      60

                  PART 4 

SUPPLEMENTARY SCHEDULES 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Balance Sheets
As of September 30, 2008 and 2007
(in thousands)
                                                                             2008                                              2007
                                                          DC Judicial                                       DC Judicial
                                                          Retirement                       Consolidated     Retirement                       Consolidated
                                                         and Survivors     DC Federal      DC Pension      and Survivors     DC Federal      DC Pension
                                                         Annuity Fund     Pension Fund     Funds Total     Annuity Fund     Pension Fund     Funds Total

Assets
     Entity Assets
          Intra-Governmental Assets
               Fund Balance with Treasury                $         15              302              317    $          15             239              254
               Investments in GAS Securities, Net             124,750        3,702,559        3,827,309          120,209       3,701,106        3,821,315
               Interest Receivable from GAS Securities          1,090           30,416           31,506            1,430          32,693           34,123
               Advances to Others                                    7              66               73                7              65               72
          Accounts Receivable, Net                                -              6,832            6,832              -            30,860           30,860
          Software-In-Development                                 -                -                  -               59           1,738            1,797
          ADP Software, Net                                         10           8,495            8,505              235          11,838           12,073
          Equipment, Net                                             2              15               17                7              66               73
Total Assets                                             $    125,874        3,748,685        3,874,559    $     121,962       3,778,605        3,900,567

Liabilities
     Liabilities Covered By Budgetary Resources
            Intra-Governmental
                 Accounts Payable                        $          7               39               46    $           3              29               32
                 Accrued Payroll and Benefits                       2               21               23                2              15               17
            Accounts Payable                                       13            3,809            3,822               77           4,416            4,493
            Accrued Pension Benefits Payable                      611           48,100           48,711              601          44,695           45,296
            Actuarial Pension Liability (Note 2j)             118,482        3,565,150        3,683,632          114,337       3,565,150        3,679,487
            Accrued Payroll and Benefits                           24              222              246               20             174              194
     Total Liabilities Covered By Budgetary Resources         119,139        3,617,341        3,736,480          115,040       3,614,479        3,729,519

     Liabilities Not Covered By Budgetary Resources
          Actuarial Pension Liability                          43,150        5,076,606        5,119,756           35,769       5,276,793        5,312,562
Total Liabilities                                             162,289        8,693,947        8,856,236          150,809       8,891,272        9,042,081

Net Position
     Cumulative Results of Operations - Earmarked              (36,415)      (4,945,262)     (4,981,677)         (28,847)      (5,112,667)      (5,141,514)
Total Net Position                                             (36,415)      (4,945,262)     (4,981,677)         (28,847)      (5,112,667)      (5,141,514)

Total Liabilities and Net Position                       $    125,874        3,748,685        3,874,559    $     121,962       3,778,605        3,900,567




                                                                               63

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Net Cost
For the Years Ended September 30, 2008 and 2007
(in thousands)
                                                                       2008                                          2007
                                                     DC Judicial                                   DC Judicial
                                                     Retirement                    Consolidated    Retirement                     Consolidated
                                                    and Survivors    DC Federal    DC Pension     and Survivors    DC Federal     DC Pension
                                                    Annuity Fund    Pension Fund   Funds Total    Annuity Fund    Pension Fund    Funds Total
Program Costs
    Administrative Expenses (Note 7)                $         913         17,501         18,414   $       1,092          14,561         15,653
    Pension Expense (Note 8)                               18,724        300,936        319,660          11,558         418,279        429,837
Total Program Costs                                        19,637        318,437        338,074          12,650         432,840        445,490

Less: Earned Revenues
    Interest Earned/Loss from GAS Securities, Net           4,481        145,544        150,025           6,218         153,017        159,235
    Employee Contributions                                    597            -              597             577             -              577
Net Cost of Operations                              $      14,559        172,893        187,452   $       5,855         279,823        285,678




                                                                           64

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Changes in Net Position
For the Years Ended September 30, 2008 and 2007
(in thousands)
                                                                      2008                                                2007
                                                  DC Judicial                                         DC Judicial
                                                  Retirement                        Consolidated      Retirement                        Consolidated
                                                 and Survivors      DC Federal      DC Pension       and Survivors      DC Federal      DC Pension
                                                 Annuity Fund      Pension Fund     Funds Total      Annuity Fund      Pension Fund     Funds Total

Cumulative Results of Operations

    Net Position - Beginning of Year            $      (28,847)       (5,112,667)      (5,141,514)   $      (30,384)      (5,178,354)      (5,208,738)

    Budgetary Financing Sources
       Appropriations Used                               6,980          340,200          347,180              7,380         345,400          352,780

    Other Financing Sources
        Imputed Financing Sources                           11                98             109                12               110             122

    Total Financing Sources                              6,991          340,298          347,289              7,392         345,510          352,902

    Net Cost of Operations                             (14,559)        (172,893)        (187,452)            (5,855)        (279,823)        (285,678)

    Net Change                                           (7,568)        167,405          159,837              1,537          65,687            67,224

    Net Position - End of Year                  $      (36,415)       (4,945,262)      (4,981,677)   $      (28,847)      (5,112,667)      (5,141,514)




                                                                             65

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combining Statements of Budgetary Resources
For the Years Ended September 30, 2008 and 2007
(in thousands)
                                                                               2008                                                2007
                                                           DC Judicial                                       DC Judicial
                                                           Retirement                        Combined        Retirement                          Combined
                                                          and Survivors      DC Federal     DC Pension      and Survivors       DC Federal      DC Pension
                                                          Annuity Fund      Pension Fund    Funds Total     Annuity Fund       Pension Fund     Funds Total
Budgetary Resources
Unobligated Balance - brought forward                 $                1              75              76    $         -                  -               -
Recoveries of Prior Year Unpaid Obligations                           41           2,293           2,334                  33           2,581           2,614
Budget Authority:
   Appropriations                                                19,039          827,394         846,433           21,647           881,883          903,530
   Spending Authority from Offsetting Collections:
      Earned:
       Collected                                                    -             35,216          35,216                2            28,611           28,613
Temporarily Unavailable Pursuant to Public Law                   (4,145)             -            (4,145)          (6,457)          (27,590)         (34,047)
Total Budgetary Resources                             $          14,936          864,978         879,914    $      15,225           885,485          900,710

Status of Budgetary Resources
Obligations Incurred:
    Direct                                            $          14,936          864,978         879,914    $      15,224           885,410          900,634
Unobligated Balance:
    Exempt from Apportionment                                       -                -               -                  1                75               76
Total Status of Budgetary Resources                   $          14,936          864,978         879,914    $      15,225           885,485          900,710

Change in Obligated Balance
   Unpaid obligations brought forward, Oct. 1         $            1,488          57,594          59,082    $       1,471             59,795          61,266
Obligations Incurred                                              14,936         864,978         879,914           15,224            885,410         900,634
Gross outlays                                                    (14,840)       (861,922)       (876,762)         (15,174)          (885,030)       (900,204)
Recoveries of Prior Year Unpaid Obligations, Actual                  (41)         (2,293)         (2,334)             (33)            (2,581)         (2,614)
Unpaid Obligated Balance, Net, End of Period:                      1,543          58,357          59,900            1,488             57,594          59,082

Net Outlays
   Gross Outlays                                                  14,840         861,922         876,762           15,174            885,030         900,204
   Offsetting collections                                            -           (35,216)        (35,216)              (2)           (28,611)        (28,613)
   Distributed offsetting receipts                                (5,077)       (142,248)       (147,325)          (6,887)          (191,083)       (197,970)
Net Outlays                                           $            9,763         684,458         694,221    $       8,285            665,336         673,621




                                                                                  66

Departmental Offices
Office of D.C. Pensions
Consolidating Intra-governmental Balances
As of and for the Years Ended September 30, 2008 and 2007
(in thousands)

                                                                                          2008                                                  2007
                                                                       D.C. Judicial                                        D.C. Judicial
                                                                        Retirement      D.C. Federal     Consolidated        Retirement     D.C. Federal    Consolidated
                                                                       and Survivors      Pension        D.C. Pension       and Survivors     Pension       D.C. Pension
Department          Intra-governmental balance description             Annuity Fund        Fund          Funds Total        Annuity Fund       Fund         Funds Total
             Assets
Treasury     Fund Balance with Treasury                            $              15            302              317    $             15            239             254
Treasury     Investments in GAS securities, net                              124,750      3,702,559        3,827,309             120,209      3,701,106       3,821,315
Treasury     Interest receivable from GAS securities                           1,090         30,416           31,506               1,430         32,693          34,123
Treasury     Advances to Others                                                    7             66               73                   7             65              72
                            Total intra-governmental assets        $         125,862      3,733,343        3,859,205    $        121,661      3,734,103       3,855,764
             Liabilities
Treasury     Accounts Payable                                      $               7              36              43    $              3               26            29
GSA          Accounts Payable                                                     —                3               3                  —                 3             3
Gen Fund     Accrued Payroll and Benefits                                         —                6               6                  —                 4             4
OPM          Accrued Payroll and Benefits                                          2              15              17                   2               11            13
                            Total intra-governmental liabilities   $               9              60              69    $              5               44            49
             Revenues
Treasury     Interest earned/loss from GAS Securities, Net         $           4,481          145,544        150,025    $          6,218        153,017         159,235
OPM          Imputed Financing Sources                                            11               98            109                  12            110             122
                            Total intra-governmental revenues      $           4,492          145,642        150,134    $          6,230        153,127         159,357
             Expenses
Treasury     Salaries and related benefits                         $              (1)              (9)           (10)   $              1              12             13
OPM          Salaries and related benefits                                        43              396            439                  43             387            430
Gen Fund     Salaries and related benefits                                        13              118            131                  12             107            119
Treasury     Contractual Services                                                299            2,327          2,626                 250           2,077          2,327
OPM          Contractual Services                                                  1                9             10                  —               —              —
Treasury     Rent                                                                 79              710            789                  78             702            780
GPO          Other                                                                —                66             66                  —               —              —
Treasury     Other                                                                (5)             (42)           (47)                 11              57             68
                            Total intra-governmental expenses      $             429            3,575          4,004    $            395           3,342          3,737




                                                                                        67

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Investments in GAS Securities - Net By Fund
As of September 30, 2008 and 2007
(in thousands)

                                                                                   2008                                                          2007
                                                                        Unamortized                                                Unamortized
                                                                         Premium       Investments     Market                       Premium         Investments     Market
                                                             Cost          Net             Net         Value            Cost          Net               Net         Value
D. C. Judicial Retirement and Survivors Annuity Fund:
Intragovernmental Securities

  Non-marketable Par Value                              $      4,062            -              4,062      4,062    $      3,981            -               3,981       3,981

  Non-marketable Market-based                                117,728          2,960          120,688    123,763         114,304          1,924           116,228     116,428


  Total                                                 $    121,790          2,960          124,750    127,825    $    118,285          1,924           120,209     120,409

D.C. Federal Pension Fund:
Intragovernmental Securities

  Non-marketable Par Value                              $    176,156            -            176,156    176,156    $    257,839            -             257,839     257,839

  Non-marketable Market-based                               3,463,313        63,090      3,526,403     3,661,274       3,388,290        54,977          3,443,267   3,458,287


  Total                                                 $   3,639,469        63,090      3,702,559     3,837,430   $   3,646,129        54,977          3,701,106   3,716,126




                                                                                       68

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Investments in Nonmarketable Market-Based GAS Securities - Net By Fund and Maturity
As of September 30, 2008 and 2007
(in thousands)


                                                                              2008                                               2007
                                                           D.C. Judicial                                     D.C. Judicial
                                                            Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                                           and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
                                                           Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total
Time of Maturity

Less than or equal to 1 year                           $          30,744       696,884         727,628   $          44,939       480,641         525,580

More than 1 year and less than or equal to 5 years                43,975     2,128,041       2,172,016              62,532     2,433,136       2,495,668

More than 5 years and less than or equal to 10 years              45,969       701,478         747,447               8,757       529,490         538,247

Total                                                  $         120,688     3,526,403       3,647,091   $         116,228     3,443,267       3,559,495




                                                                                69

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Administrative Expenses - By Fund
For the years ended September 30, 2008 and 2007
(in thousands)

                                                                2008                                               2007
                                           D.C. Judicial                                        D.C. Judicial
                                            Retirement       D.C. Federal    Consolidated        Retirement     D.C. Federal   Consolidated
                                           and Survivors       Pension       D.C. Pension       and Survivors     Pension      D.C. Pension
                                           Annuity Fund         Fund         Funds Total        Annuity Fund       Fund        Funds Total
Intragovernmental Expenses
   Salaries and Related Benefits       $              55             505              560   $             56            506             562
   Contractual Services                              300           2,336            2,636                250          2,077           2,327
   Rent                                               79             710              789                 78            702             780
   Noncapitalized Equipment/Software                 -                 2                2                  4            -                 4
   Other                                               (5)            22               17                  7             57              64
    Total intragovernmental expenses   $             429           3,575            4,004   $            395          3,342           3,737

Public Expenses
  Salaries and Related Benefits        $             204           1,901            2,105   $            201          1,787           1,988
  Contractual Services                                45           6,919            6,964                 39          2,833           2,872
  Rent                                               -               -                -                  -                1               1
  Noncapitalized Equipment/Software                    3             -                  3                  1             41              42
  Amortization/Depreciation                          230           5,083            5,313                454          6,542           6,996
  Other                                                3              22               25                  2             15              17
    Total public expenses              $             485          13,925           14,410   $            697         11,219          11,916


    Total administrative expenses      $             914          17,500           18,414   $           1,092        14,561          15,653




                                                                       70

 Department of the Treasury
 Department Offices
 Office of D.C. Pensions
 Pension Expense - By Fund
 For the years ended September 30, 2008 and 2007
(in thousands)

                                                                         2008                                                2007
                                                      D.C. Judicial                                      D.C. Judicial
                                                       Retirement     D.C. Federal   Consolidated         Retirement      D.C. Federal   Consolidated
                                                      and Survivors     Pension      D.C. Pension        and Survivors      Pension      D.C. Pension
                                                      Annuity Fund       Fund        Funds Total         Annuity Fund        Fund        Funds Total

Normal Cost                                       $           4,200           -             4,200    $           4,500            -             4,500
Actuarial (Gains) Losses During the Period                    5,724      (104,964)        (99,240)              (1,542)          (121)         (1,663)
Interest on Pension Liability During the Period               8,800       405,900         414,700                8,600        418,400         427,000

Total Pension Expense                             $          18,724       300,936         319,660    $          11,558        418,279         429,837




                                                                             71

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Reconciliation of Net Cost of Operations to Budget
For the Years Ended September 30, 2008 and 2007
(in thousands)
                                                                                                          2008                                                 2007
                                                                                      DC Judicial                                           DC Judicial
                                                                                      Retirement                          Consolidated      Retirement                       Consolidated
                                                                                     and Survivors      DC Federal        DC Pension       and Survivors     DC Federal      DC Pension
                                                                                     Annuity Fund      Pension Fund       Funds Total      Annuity Fund     Pension Fund     Funds Total
Budgetary Resources Obligated
    Obligations Incurred                                                             $      14,936           864,978           879,914     $      15,224          885,410         900,634
    Less: Spending Authority from Offsetting Collections and Adjustments                        41            37,509            37,550                35           31,192          31,227
    Obligations Net of Offsetting Collections and Recoveries                                14,895           827,469           842,364            15,189          854,218         869,407
    Less: Offsetting Receipts                                                                5,077           142,248           147,325             6,887          191,083         197,970
    Net Obligations                                                                          9,818           685,221           695,039             8,302          663,135         671,437
    Imputed Financing from Costs Absorbed by Others                                             11                98               109                12              110             122
    Total Resources Used to Finance Activities                                               9,829           685,319           695,148             8,314          663,245         671,559
Resources Used to Finance Items Not Part of the Net Cost of Operations
    Change in Budgetary Resources Obligated for Goods, Services and
      Benefits Ordered but not yet Provided                                                    101            (2,096)           (1,995)               21             (888)            (867)
    Resources That Fund Expenses Recognized in Prior Periods                                     -           176,157           176,157                 -           79,347           79,347
    Resources that Finance the Acquisition of Assets or Liquidation of Liabilities             (59)              (48)             (107)                -            4,169            4,169
    Other Resources or Adjustments to Net Obligated Resources that do not
      Affect Net Cost of Operations                                                          6,980           340,200           347,180             7,380          345,400         352,780
Total Resources used to Finance Items not part of the Net Cost of Operations                 7,022           514,213           521,235             7,401          428,028         435,429
Total Resources Used to Finance Net Cost of Operations                                       2,807           171,106           173,913               913          235,217         236,130
Components Requiring or Generating Resources in Future Periods
    Increase in Exchange Revenue Receivable from the Public                                      -                    -               -                1                -                1
    Future Funded Expenses                                                                  11,525                    -          11,525            4,394               (1)           4,393
Total Components of Net Cost of Operations that will Require or Generate
 Resources in Future Periods                                                                11,525                    -          11,525            4,395               (1)           4,394
Components not Requiring or Generating Resources
    Depreciation and Amortization                                                              (429)           3,868              3,439              578            8,204            8,782
    Other                                                                                       656           (2,081)            (1,425)             (32)          36,404           36,372
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Future Periods                                                                   227               1,787            2,014              546           44,608           45,154
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Current Periods                                                               11,752             1,787            13,539             4,941           44,607          49,548
Net Cost of Operations                                                               $      14,559           172,893           187,452     $       5,854          279,824         285,678




                                                                                               72

